<html>
<title> - INTERNATIONAL AVIATION SCREENING STANDARDS</title>
<body><pre>[Senate Hearing 111-1085]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1085

                        INTERNATIONAL AVIATION 
                          SCREENING STANDARDS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 2, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE
70-645 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           GEORGE S. LeMIEUX, Florida
FRANK R. LAUTENBERG, New Jersey      JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2010.................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Rockefeller.................................     3
Statement of Senator Johanns.....................................     4
Statement of Senator Lautenberg..................................    33
Statement of Senator Thune.......................................    41
Statement of Senator Klobuchar...................................    45

                               Witnesses

Hon. David Heyman, Assistant Secretary, Office of Policy, U.S. 
  Department of Homeland Security................................     6
    Prepared statement...........................................     8
Vicki Reeder, Director of Global Compliance, Office of Global 
  Strategies, Transportation Security Administration, U.S. 
  Department of Homeland Security................................    14
    Prepared statement...........................................     8
Stephen M. Lord, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office..........................    16
    Prepared statement...........................................    18
Gregory Principato, President, Airports Council International--
  North America..................................................    26
    Prepared statement...........................................    28

                                Appendix

Response to written questions submitted to Hon. David Heyman by:
    Hon. Frank R. Lautenberg.....................................    51
    Hon. Roger F. Wicker.........................................    52
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Stephen M. Lord..............................................    52
    Gregory Principato...........................................    53
Letter, dated December 1, 2010, to Hon. John D. Rockefeller IV, 
  Hon. Byron Dorgan, Hon. Kay Bailey Hutchison and Hon. Jim 
  DeMint from Scott Boyland, Vice President and General Counsel, 
  Morpho Detection, Inc..........................................    53
Letter, dated December 1, 2010, to Hon. John D. Rockefeller IV, 
  from Kate Hanni, Executive Director, FlyersRights.org..........    55

 
                        INTERNATIONAL AVIATION 
                          SCREENING STANDARDS

                              ----------                              


                       THURSDAY, DECEMBER 2, 2010

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:16 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We're going to call the hearing to order 
this afternoon. This is a hearing of the Aviation Subcommittee, 
the Committee on Commerce, Science, and Transportation. I'm 
Senator Dorgan, Chairman of the Subcommittee. I'm joined by the 
Chairman of the full Committee, Senator Rockefeller. Senator 
Rockefeller, thank you for being here.
    Let me provide a brief opening statement and then call on 
my colleague Senator Rockefeller, after which we will hear from 
four witnesses today. First of all, let me say that I am really 
pleased that during this Congress under the leadership of 
Senator Rockefeller we've considered a significant number of 
aviation issues in our Subcommittee and full Committee. I know 
that these efforts ultimately are going to make the skies safer 
for the traveling public, and there is much work yet to do.
    The largest piece of legislation that we accomplished, 
however, the FAA reauthorization bill, is still awaiting a 
final vote after many, many months of negotiation. It is a 
great disappointment to me, and I know the Chairman of the full 
Committee, that we have not yet seen that completed by the 
Senate. It's completed by this committee, but we have not yet 
had completion of a conference report and get it to the 
President for signature.
    I hope that my colleagues in the Senate--I know I speak for 
Senator Rockefeller--would join us in working seriously to try, 
even at this late date, to get the FAA reauthorization bill 
completed. It deals with air traffic control modernization and 
so many issues that are important. I still remain hopeful that 
there might be some crevice, some narrow crevice through which 
we can get that legislation passed at long last.
    We've had 16 extensions of the FAA reauthorization bill. 
That to me is failure. And the work that we have done is 
excellent work, I think, and the country would be well served 
if we can get the bill to the President for signature.
    With that said, the hearing that we have today touches on 
something that we've been talking about a lot, particularly 
since the last Christmas period, when a man got on an airplane 
in a foreign land and attempted to bring down an aircraft 
loaded with passengers, with a bomb sewn in the underwear. It 
is the Christmas Bomber.
    Fortunately, that bomb did not detonate, despite the fact 
that the passenger attempted to detonate that bomb. We know 
from that plot and other bomb plots over the past year that 
aviation security screenings are important, not just at our 
airports, but at every airport in this world.
    We also know that every nation is expected to meet aviation 
security protocols that have been set out by the 
[International] Civil Aviation Organization, the ICAO. But the 
methods by which many countries meet these protocols is largely 
at the discretion of each country.
    We also know that over the past year the Department of 
Homeland Security and the Transportation Security 
Administration have worked extensively with international 
partners to try to update existing aviation security protocols. 
I applaud and appreciate the work the agencies have done, but 
clear standards that all airports in this world should meet and 
must meet are still lacking.
    The Christmas Day incident that I just referenced is an 
incident in which the suspect departed from Nigeria, where he 
in fact was subject to walk through a metal detector, a metal 
scanner, which meets existing security protocols in that 
country. Nonetheless, a person with a bomb in their underwear 
boarded the airplane and could very easily have brought that 
plane down and killed all of the passengers.
    The thwarted bombing suspect was able to get through with 
explosives on his body because those standards and that scanner 
did not pick up those explosives.
    This occurrence has led some nations, including our 
country, to use advanced imaging technology. Those machines 
have generated a great deal of discussion and news stories in 
recent weeks especially. Those machines are at commercial 
airports in many cases in this country, not all cases, while 
other countries continue to use other methods to screen 
passengers.
    I know that these new machines are designed to catch types 
of explosives that are difficult, and I know that these are 
controversial screening techniques. We are very anxious to get 
to the advanced technology, which we discussed in this 
committee not long ago, where imaging technology would have the 
human figure as a stick figure, detecting only that which would 
be on the stick figure that would be difficult or represent a 
threat to the airplane.
    So we're working very hard on advanced technology. The 
companies and the agencies are working together to have a more 
secure system while still respecting all of the civil rights of 
passengers.
    A couple more points. It's clear that the most significant 
threats to the U.S. aviation system are consistently foreign-
based. I say that not suggesting there aren't internal threats. 
Indeed there are. But if we take a look at what we have 
confronted--the shoe bomber, the underwear bomber, the 
cartridge toners, the liquids in bottles--all of those are 
foreign-based plots that in many ways were trying to put 
explosives on airplanes that would fly over our territory.
    That's why it's critically important that we work so 
closely with other countries and corporations to cooperate on 
improving this system.
    Now, it's in the best interests, it seems to me, of 
commercial air carriers, of our manufacturers and homeland 
security representatives to come together on security solutions 
and push for consistency in their application. That's the 
purpose of this hearing today, to determine not just what is 
happening at our airports--we've certainly read enough about 
that in recent weeks--not what is happening in our airports to 
keep someone off a commercial airplane who may have a bomb on 
their person, but what is happening at every other airport and 
the world in which passengers who may well come to this country 
or will be traveling elsewhere are boarding an airplane that 
may well be unsafe because the screening technology and the 
screening capability was not meeting standards that we would 
expect.
    This is a very important, a very controversial, and a very 
complicated subject, and the members of this committee 
appreciate a great deal all of the work that's been done by 
TSA, by Homeland Security, and by so many others, private 
companies that are working on new technologies as well.
    Let me call on the Chairman of the full Committee, Senator 
Rockefeller, for an opening statement.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Thank you, Mr. Chairman.
    Before we begin, I want to say that this is, after 25 years 
of public service in the Congress, this is the last hearing 
that Senator Dorgan will chair. To me that's worthy of comment, 
because he has been absolutely superb. He's going--he's not 
going to retire. He doesn't know how to do that. I don't know 
what he's going to do. But I think it's an enormous loss to the 
Senate.
    Byron Dorgan can talk on any subject any time, at great 
length or short length, whatever is required. He can be on 
three different television stations at the same time--I don't 
know how he does that--talking passionately about jobs going 
overseas and tax incentives for that to happen. He cares so 
deeply about manufacturing. He's the quintessential what I 
would call--North Dakota and West Virginia aren't similar. One 
is sort of flat and the other is sort of not. But we are very 
similar in our people, in our work ethic. And Byron Dorgan 
exemplifies that.
    He makes me incredibly proud just to serve with the guy, to 
watch him. He never stops moving. I think he has already spoken 
on the floor twice this morning. I know I saw him once, and I 
didn't watch the floor very much, so probably twice.
    He always has his thoughts in order. He's always right. I 
can't think of a single time when he and I have disagreed. I'm 
sure it has happened, but it certainly doesn't come to mind.
    So I think this is going to be a weaker committee, this is 
going to be a weaker Senate, without Byron Dorgan, and I mourn 
that because what we need in this place are people with passion 
and people who are not gripped by politics first of all or 
theology first of all, but who are gripped by issues, and 
particularly putting people to work, fair trade, not exporting 
jobs, but creating more jobs, somebody who's just totally 
working middle-class-oriented, and he is that.
    I'm so proud to serve with him and I'm so sorry that I'm 
not going to be able to any more. So I would like to put that 
into the record. He cares about these things, good wages, good 
benefits. He even wrote a book about it. I haven't read it yet, 
but it's ``Take This Job and Ship It.'' It ought to be on your 
bedside table.
    I just feel privileged to have served with him, and he's 
what a Senator ought to be. Everything is serious, nothing is 
frivolous, but he has a very good sense of humor, but you have 
to know him well. And he's a fighter.
    That's what this place should be about, somebody who loves 
public policy, and that's Byron.
    Senator Dorgan. Your time has expired.
    The Chairman. No, it hasn't.
    [Laughter.]
    Senator Dorgan. Thank you very much.
    The Chairman. My thoughts about you have expired. But I've 
got to say one quick word.
    Senator Dorgan. Thank you very much. You're very generous.
    The Chairman. Well, I am very generous. I am very generous, 
but I'm also very honest. You're good, Byron, and you need to 
know that.
    So we're here to talk about the aviation security matters. 
As Byron said, there have been a lot of significant steps 
taken. This whole question of invasion of private security 
versus the security of the country, the security of airports, 
is huge. Everything is global now. Everything is in an 
international environment, and are others doing what we want 
them to do. If they're not, what do we do about that?
    So I look forward to this hearing and I look forward to 
hearing our witnesses, and I thank the Chair.
    Senator Dorgan. Thank you very much.
    Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman and Mr. Chairman: Let me, if 
I might, just offer a word also. I want to say to Chairman 
Dorgan how much I've appreciated the opportunity to be in the 
Senate with you over the last 2 years. As a former Secretary of 
Agriculture who interfaced with you a lot when I was in the 
Cabinet, I always knew that when I had a meeting with you I 
better darn well be prepared, because I knew you were going to 
be prepared.
    Even though there were probably many times where we were on 
opposite sides of issues, I want you to know that you're one of 
the members when you pop up on the TV screen and I'm in my 
office going through paperwork or whatever, I tend to listen to 
what you're saying because you're so articulate and you have so 
much experience that you bring to bear.
    So I join with what Chairman Rockefeller has said. You have 
brought a lot to this body and you will be missed.
    I also wanted to offer just a word or two if I could about 
the subject of our hearing. The first thing I want to say--and 
I really feel I speak for everybody when I say this--and that 
is to just recognize how important airline security is. We all 
watched in horror on 
9/11 as those planes were flown into the tower and into the 
ground and into the Pentagon, and we certainly don't want to 
ever, ever see that again. We want to do everything possible.
    I fly a lot, like every member. I have flown a lot 
internationally because various jobs that I have had have 
required me to do that. My experience with the traveling public 
has been good. I think if we explain to them the need for the 
security and what we're doing and why we're doing it, the 
public has been more than willing to go along.
    It has been an evolutionary process, as we all know. I 
think we can all remember the days when you could arrive at the 
airport 20 minutes ahead of the flight, make a mad dash for the 
ticket counter, and make a mad dash for the gate, and run on 
the airplane. Well, those days are over, and the public has 
been understanding.
    As security has evolved and as we have explained the need 
for security, the public has evolved. So if I were to just 
offer one thought, whether it's international flights or 
domestic flights, I think if we can communicate to the public 
this is why this is needed, this is why we're taking this new 
step, it will go a long way to calming the concerns of people.
    The last thing I wanted to mention on international flying, 
an important piece of the security puzzle for me is baggage: 
What are we doing about baggage? Can we be assured that that 
bag that is put into that airplane is safe, that it has been 
checked, that again that piece of the security puzzle is dealt 
with?
    We can ask our travelers to go through a lot, whether it's 
advanced screening, whether it's a patdown, whatever it is. But 
if we're not getting the job done on the cargo, then very 
simply we've got a problem. So I'll be anxious to hear about 
that. I'll wrap up and just say I believe it is so terribly 
important that we get this right, that we communicate with the 
public, and that we continue to let them know why these 
measures are important.
    Thank you.
    Senator Dorgan. Senator Johanns, thank you very much. As 
you were mentioning it, I came here 30 years ago at a time when 
you could rush to the airport, rush to the ticket counter, and 
rush on the airplane, and then sit back and have a cigarette, 
not that I smoked at the time. But things have changed very 
dramatically, and the first change was to make certain that 
people who boarded an airplane did not have a gun. The reason? 
People were using guns on airplanes to hijack the airplane, 
mostly to fly to Cuba, but in some cases to fly elsewhere. If 
you could simply separate a potential passenger from a gun, you 
had the security you needed.
    Things have changed so dramatically since then, the shoe 
bomber, underwear bomber, and very sophisticated threats. So 
that's why we find ourselves in a very different situation, not 
just with American or U.S. airports, but with airports all 
around the world.
    So I'm really pleased today to welcome the Honorable David 
Heyman, the Assistant Secretary for Policy at the U.S. 
Department of Homeland Security; Ms. Vicki Reeder, 
Transportation Security Administration Office of Global 
Strategies, International Operations, at the Department of 
Homeland Security; and Mr. Stephen Lord, the Director of 
Homeland Security and Justice Issues at the GAO, Government 
Accountability Office.
    Is it ``HAY-man''? Mr. Heyman, thank you for being with us 
and why don't you proceed. The full statements of all of the 
witnesses will be made part of the permanent record and you may 
summarize. Mr. Heyman.

                STATEMENT OF HON. DAVID HEYMAN,

             ASSISTANT SECRETARY, OFFICE OF POLICY,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Thank you, Chairman and distinguished members, 
for having us here today. Let me thank you and join in thanking 
you for your service, the support for the Department over the 
years and for our economic security for even longer, so thank 
you for that.
    The topic today continues to be one of great importance. As 
you know, the attempts over the past year to attack the United 
States make the international dimensions of the aviation system 
quite clear. In both cases, terrorists looked to strike at 
America by using the international aviation system, the 
structures and operations across multiple countries in 
international airports, to attack us here at home.
    The key lesson in both of these incidents is that if you 
have access to one part of the system you have access to the 
entire system. These attempted attacks highlight the fact that 
the terrorist threat is a global challenge and ensuring 
aviation security is a shared responsibility. Consequently, 
efforts to protect Americans at home must extend beyond our 
shores, to include partnerships with industry and governments 
abroad.
    In fact, America's security relies in part on a robust 
system comprised of many layers operated by many partners 
across many continents. The system of collective security 
relies in part on the competency and capabilities of each 
individual partner. As such, maintaining effective standards 
and best practices is critical, and so I commend you on this 
hearing and shedding light on this important topic.
    We will talk today about our response to the October 28 
cargo plot, the work we've done over the last year, and, as you 
said, we have submitted a full statement for the record.
    The October cargo plot represents an evolution of the 
threat beyond passenger planes to cargo. Our enemies continue 
to try to penetrate our security. Senator Dorgan, as you said, 
we separated the gun from the passengers, but now--and we tried 
to separate the bomb from the passengers. Now the bombs are 
going elsewhere.
    The Department and its partners need to continue to adapt 
and innovate as well in terms of addressing these threats. It's 
that ability to adjust, to anticipate, to craft new strategies 
with our partners and to secure the flows of people and cargo 
around the world that will allow us to prevail.
    The Department, both as a matter of response to these 
failed attacks and as part of our larger strategy already under 
way, has undertaken a number of measures to increase aviation 
security. We augmented existing protocols for screening inbound 
cargo, including temporarily grounding all packages originating 
from Yemen destined to the United States. With constant 
communication and coordination with the private sector and with 
international and government partners, we were able to support 
the larger effort by the U.S. government to disrupt the plot on 
October 28 before it did any harm.
    DHS has also issued additional directives to the airline 
industry on the nonacceptance or extra screening of high-risk 
packages on passenger and all cargo flights. Those directives 
are in effect today.
    In terms of our broader efforts, since 12/25 and the 
attempts of Abdulmutallab to detonate a device on an aircraft 
from The Netherlands to Detroit, we have accelerated efforts to 
enhance and harmonize international and domestic aviation 
security standards, with a focus on four key priorities: first, 
strengthening aviation security measures and standards; second, 
developing and deploying new security technologies and 
measures; third, enhancing information gathering and sharing; 
and fourth, coordinating international technical assistance.
    In terms of strengthening aviation security standards, 
immediately following the events of 12/25 we initiated a broad 
international campaign to strengthen the global aviation system 
against the evolving threats posed by terrorism. The Deputy 
Secretary and I traveled to and consulted with nearly a dozen 
countries, touching on every continent and region. The 
Secretary then participated in five regional summits and 
meetings, engaging nearly 90 countries in consultations and 
discussions.
    That effort culminated in a declaration by ICAO as you 
mentioned on aviation security that was signed onto by 190 
nations. Following that, at the assembly meeting of ICAO in 
October the council updated its standards and recommended 
practices for security to include updates on cargo security. 
This is a major accomplishment.
    In terms of developing and deploying new technologies, more 
than a dozen nations have joined the United States in 
strengthening their aviation systems by boosting their budgets 
on security and the use of new technologies, to include 
advanced imaging technology and an expansion of Federal Air 
Marshals and screening of air cargo.
    In terms of enhancing information gathering, we have this 
week as part of Secure Flight Initiative, we now vet and have 
taken over the responsibility for vetting 100 percent of 
passengers on flights within or bound to the United States 
against the watch lists--a number of other technology 
initiatives, information sharing initiatives, and coordination 
on technical assistance that my colleague will touch upon in 
her opening statement.
    Let me conclude by recalling a strategic document that we 
put forth this year. The first ever Quadrennial Homeland 
Security Review was developed by the Department and released 
earlier in February of this year. In it we set forth the 
mission of a safe, secure, and resilient homeland where 
American interests, aspirations, and way of life can thrive. 
That is our vision. We articulated clear missions, goals, and 
objectives to accomplish this mission.
    In the end, we concluded rightly that America--that this 
nation can protect itself, but we must all play a role. In the 
commitment of each, we will secure the homeland for all. That 
same conclusion is true for all of those who comprise the 
international aviation system. In the commitment of each, we 
will secure the system for all.
    I look forward to the discussion today. Thank you.
    [The prepared statement of Mr. Heyman and Ms. Reeder 
follows:]

Prepared Statement of Hon. David Heyman, Assistant Secretary, Office of 
   Policy and Vicki Reeder, Director of Global Compliance, Office of 
                                Global 
Strategies, Transportation Security Administration, U.S. Department of 
                           Homeland Security
Introduction
    Chairman Dorgan, Ranking Member DeMint, and distinguished members 
of the Subcommittee, thank you for the opportunity to testify today 
about the Department of Homeland Security's (DHS) ongoing efforts to 
improve aviation security standards in the wake of two failed terrorist 
attacks on the aviation system--on December 25, 2009 and October 28, 
2010.
    As you know, both of these attempted attacks involved exploiting 
the international aviation infrastructure to attack America. It is 
clear, however, that while the targets were domestic, the mechanisms 
that set these plots in motion were decidedly international. In both 
cases, terrorists sought to strike at America using the global aviation 
system, including the structures and operations across multiple 
countries and international airports, with little regard for the threat 
or potential consequences to a multitude of countries and citizens.
    America's security--and the threats to it--does not exist in a 
vacuum. Consequently, protective efforts must extend beyond our shores. 
America's security relies in part on a robust international aviation 
security system, comprised of many layers and operated by many 
partners, across the globe. This system of collective security measures 
depends in part on the competency and capabilities of each individual 
partner. As such, maintaining effective standards and best practices is 
critical.
    The recent attempts to attack the United States--the plot aboard 
Northwest Airlines (NWA) Flight 253 on December 25, 2009, and the 
October 28, 2010 cargo plot using aircraft to conceal and ship 
explosive devices--highlight the fact that the terrorist threat is a 
global challenge and ensuring aviation security is a shared 
responsibility.
    In our testimony today, we would like to discuss DHS's role in 
responding to the October 28 cargo plot and some of the initiatives we 
are looking to implement in the long term, followed by a broader 
discussion of our efforts post-12/25 in enhancing international 
aviation security. We will conclude with some observations on the way 
forward.
The October 28 Plot
    Similar to the NWA 253 plot, as the events of October 28 unfolded, 
DHS took a number of actions to immediately ensure the safety and 
security of the American people. The Transportation Security 
Administration (TSA) and U.S. Customs and Border Protection (CBP) 
immediately took measures to enhance existing protocols for screening 
inbound cargo, including temporarily grounding all packages originating 
from Yemen destined for the United States. With constant communication 
and coordination with the private sector, and with international and 
government partners, we were able to support the larger effort by the 
U.S. government to successfully disrupt this plot before it did any 
harm. As we continue to address the threat to air cargo, DHS continues 
to gather and analyze information and develop intelligence on the 
packages intercepted from Yemen.
    In the days immediately following the attempted plot, at the 
direction of President Obama and Secretary Janet Napolitano, TSA 
deployed a team of security specialists to Yemen to provide assistance 
and guidance to the Government of Yemen regarding its cargo screening 
procedures. TSA also conducted significant outreach with more than 100 
foreign governments, more than 200 foreign air carriers, and several 
industry organizations to discuss the common transportation security 
threats we all face and the cooperative actions we could take to 
address security vulnerabilities.
    On November 2, Secretary Napolitano spoke with leaders of the 
international shipping industry, including UPS, DHL, FedEx, and TNT, 
about enhancing air cargo security. During that discussion, Secretary 
Napolitano underscored her commitment to partnering with the shipping 
industry to strengthen cargo security through enhanced screening and 
preventative measures, including terrorism awareness training for 
shipping industry personnel.
    Following her dialogue with shipping industry leaders, Secretary 
Napolitano spoke with International Air Transport Association (IATA) 
Director General Bisignani about the Department's continued 
collaboration with our private sector and international partners to 
secure the global supply chain through a layered security approach that 
is designed to identify, deter, and disrupt threats at the earliest 
possible point. The Secretary also reiterated her commitment to ongoing 
coordination with the airline and shipping industries to uphold TSA 
security standards, including the vetting of personnel with access to 
cargo, employee training, and cargo screening procedures.
    DHS also issued additional directives to the airline industry on 
the non-acceptance or enhanced screening of high-risk packages on 
passenger and all-cargo flights. Specifically, on November 8, Secretary 
Napolitano announced that:

  <bullet> The ban on air cargo from Yemen will continue and has been 
        expanded to all air cargo from Somalia;

  <bullet> No high-risk cargo will be allowed on passenger aircraft;

  <bullet> Toner and ink cartridges weighing 16 ounces or more will be 
        prohibited on passenger aircraft in both carry-on bags and 
        checked bags on domestic and international passenger flights 
        in-bound to the United States, as well as certain inbound 
        international air cargo shipments; and

  <bullet> All cargo identified as high-risk will go through additional 
        and enhanced screening, including inbound international mail 
        packages, which must be screened individually and certified to 
        have come from an established postal shipper.
DHS Initiatives
    Beyond the immediate actions taken as a result of the directives 
discussed above, DHS is working to develop a range of longer-term and 
sustainable security solutions to address this real and constantly 
evolving threat.
    First and foremost, DHS will accelerate work that has been ongoing 
since early this year to obtain critical information on the goods, 
conveyances, and entities involved in the shipment of air cargo to the 
United States prior to the loading of that cargo on an aircraft. The 
Department relies upon a risk-based and layered approach to security 
that allows us to focus our resources on the greatest threats and helps 
us speed delivery of lawful shipments. This approach is only as good as 
the data we gather about each shipment; and DHS is constantly striving 
to improve the quality and timeliness of the data we receive.
    We are exploring additional pilot programs to augment several of 
the pilots that have been operational since early 2010 to better 
understand the type, quality, and timeliness of the pre-departure 
information we may require in the future. These pilots will ensure that 
we derive the most security benefit from any additional requirements 
and have considered the wide range of policy and operational factors 
that will need to be addressed. For instance, while some entities may 
be in a position to provide the necessary information now, others may 
need time to develop the appropriate technical systems or business 
processes. In addition, procedures for further inspecting and 
adjudicating suspicious cargo will need to be refined, as DHS does not 
currently have a physical presence in many airport locations where air 
carriers and host nation partners conduct the inspections. DHS is 
committed to moving forward with a pre-departure initiative and is 
developing a more detailed timeline and work plan.
    In addition to seeking pre-departure information, we are also 
working with our international and private sector partners to expand 
and strengthen other important layers of security including:

  <bullet> prioritized engagement with worldwide cargo hubs and high-
        risk/high-threat shipping locations;

  <bullet> development and sharing of intelligence and information 
        gathering capabilities to target high risk cargo;

  <bullet> continued promotion and development of next-generation 
        technologies that can identify threat material; and

  <bullet> coordination and mutual recognition of processes and 
        programs among federal partners and also, where possible, among 
        private and public sector partners with a role in aviation 
        security.

    It is critical that DHS and other federal stakeholders work closely 
with the variety of private sector entities that own and operate the 
air cargo system to ensure that strong and sensible security measures 
are developed that both protect the aviation system and facilitate the 
movement of legitimate trade that is so essential to our economic 
prosperity. To highlight the crucial role of the private sector in this 
area, it is important to note that FedEx, UPS, DHL, and TNT together 
employ more than 1 million people around the world, and own or operate 
more than 1,700 aircraft. Each of these companies has operations in 
more than 200 countries. In 2008, air merchandise trade comprised 
almost 30 percent of U.S. exports by value, totaling approximately $390 
billion, and almost 20 percent of U.S. imports by value, totaling more 
than $417 billion. Combined, that represents more than $800 billion of 
U.S.-international merchandise trade.
DHS and Aviation Security Post-12/25
    Over the past 11 months, DHS has embarked on an unprecedented 
international campaign to elevate the importance of aviation security 
worldwide, with a focus on four priorities: strengthening aviation 
security measures and standards; developing and deploying new security 
technologies and measures; enhancing information gathering and sharing; 
and coordinating international technical assistance. Today we would 
like to highlight the advancements made in each of these categories.
Strengthening Aviation Security Measures and Standards
    The global dimensions of the attempted attacks in December 2009 and 
October 2010 highlight the importance of international partnerships in 
mitigating evolving threats to our security. Over the past year, under 
the leadership of Secretary Napolitano, DHS and its components, 
including TSA, CBP, and Immigration and Customs Enforcement (ICE), have 
accelerated efforts to enhance and harmonize international and domestic 
aviation security standards.
    In order to enhance global aviation security measures and 
standards, DHS initiated a broad international campaign to strengthen 
the global aviation system against the evolving threats posed by 
terrorism. After initial outreach following the December 2009 attempted 
attack that laid the groundwork for improved aviation security 
standards, Secretary Napolitano participated in four Regional Aviation 
Security Conferences hosted by Mexico, Japan, Nigeria, and the United 
Arab Emirates while working in concert with the International Civil 
Aviation Organization (ICAO) to increase international awareness and 
strengthen global aviation security measures. Secretary Napolitano also 
traveled to Spain and met with European ministers during the Justice 
and Home Affairs Informal Meeting on January 22, 2010, to promote 
enhanced global aviation standards. These five regional conferences and 
meetings included broad participation from elected leaders, security 
ministers, and airline officials across Europe, the Western Hemisphere, 
the Asia Pacific region, Africa, and the Middle East and resulted in 
the signing of historic joint declarations on improved aviation 
security standards in each region.
    The ICAO General Assembly, held from September 28 to October 8 in 
Montreal, Canada, is a significant and essential global forum for 
advancing aviation security. Secretary Napolitano participated in this 
forum along with leaders from the majority of ICAO's 190-member states. 
Among the important security initiatives adopted by the General 
Assembly was the ICAO Declaration on Aviation Security, which was 
derived from the priorities and resulting Declarations endorsed at the 
five regional conferences and meetings held earlier in the year. The 
Declaration contains language on a number of key DHS aviation security 
priorities to help bolster global aviation security, including: 
increased screening technology, improved information sharing, enhanced 
cargo and airport security, expanded onboard flight protection, and 
increased transparency of ICAO audits. ICAO has also developed the 
Comprehensive Aviation Security Strategy (ICASS) that establishes the 
strategic framework for ICAO's aviation security efforts for the next 6 
years. As President Obama noted, ``the extraordinary global 
collaboration demonstrated by the nearly 190 ICAO countries during the 
ICAO General Assembly helped to bring about a truly 21st century 
international aviation security framework that will make air travel 
safer and more secure than ever before.'' The efforts taken by ICAO 
renew focus on aviation security and promote innovative, effective, and 
efficient security approaches, information sharing, and compliance and 
oversight, and emphasize the importance of security among sovereign 
states and stakeholders, as well as within ICAO.
    Annex 17 to the ICAO Convention on International Civil Aviation has 
included cargo screening and security controls provisions well before 
September 11, 2001, and the provisions have been further updated in the 
most recent iteration, Amendment 12, adopted in November 2010. As with 
other aspects of aviation security, there is still a need to improve 
performance internationally. In order to advance this concept, on 
November 16, 2010, TSA leadership met with the ICAO Secretary General 
and representatives from several countries and industry to discuss 
near-, mid-, and long-term actions informed by the most current threat 
information and intelligence. Discussions focused on implementing a 
graduated approach, led by ICAO, to identify ways to enhance cargo 
security worldwide.
    This endeavor must be a collaborative mechanism for international 
counterparts from governments and industry to come together to discuss 
the threat from a risk perspective and identify actionable mitigation 
options. As this undertaking evolves, it will also serve as a model for 
the establishment of a mechanism for timely incident management led by 
ICAO, and also help to unify the global response as incidents occur.
    We anticipate that this effort will encourage collaboration among 
international partners including both industry and organizations. Key 
priorities include the prioritized engagement with key cargo hubs and 
high threat cargo shipment countries; the establishment of a standard 
definition of high-risk cargo; development of chain of custody 
requirements and compliance requirements; development of multinational 
compliance teams and technology teams; information sharing; training; 
and development of ICAO guidance related to air cargo security. This 
guidance will be built upon the consensus of the international 
community along with outreach to industry and governments. Longer-term 
options under consideration include development of fortified devices to 
ensure minimal impact to the aircraft in addition to more rigorous 
standards for air cargo security at the international level.
    The Department continues to support ICAO's Universal Security Audit 
Program (USAP), an essential tool for overseeing the implementation of 
the security measures set forth in Annex 17 to the Convention on 
International Civil Aviation. DHS supports the use of audit results to 
prioritize technical cooperation and capacity development as well as 
the greater transparency of audit results among member states when 
significant security concerns are found and verified.
    Immediately following the air cargo incident, TSA participated in 
the ICAO Points of Contact Network and communicated directly with all 
countries with flights to the United States from the Western 
Hemisphere, Asia-Pacific, Europe, Africa, and the Middle East. In 
addition, TSA coordinates closely with the European Union (EU) on all 
transportation security issues of mutual concern, including through 
formal meetings twice per year of the U.S.-EU Transportation Security 
Coordination Group (TSCG). Immediately after we learned of the air 
cargo threat, TSA consulted with EU officials as new requirements were 
developed for flights to the United States and participated via video 
teleconference in the EU Aviation Security Emergency meeting on 
November 5, 2010, to specifically discuss air cargo.
    Additionally, we encourage the continuance of regional aviation 
security conferences to improve aviation standards amid evolving 
threats. In her opening remarks at the ICAO General Assembly, Secretary 
Napolitano encouraged other member states to continue to hold these 
conferences after the ICAO Assembly concluded. All of these priorities 
have and will continue to help strengthen aviation security standards 
and measures worldwide.
Developing and Deploying New Security Technologies
    Since January 2010, DHS and its components have facilitated the 
development and deployment of new security technologies and measures 
around the world. Already, more than a dozen nations have joined the 
United States in strengthening their aviation systems by increasing 
their aviation security budgets and accelerating the use of new 
technologies. Today we would like to highlight several of these 
security enhancements:

  <bullet> Increased Deployment of Advanced Imaging Technology (AIT): 
        AIT machines bolster security by safely screening passengers 
        for metallic and non-metallic threats including weapons, 
        explosives, and other objects concealed under layers of 
        clothing. To date, 13 countries have joined the United States 
        in utilizing AIT. The Netherlands and Nigeria, two countries 
        through which Umar Farouk Abdulmutallab traveled before his 
        flight to Detroit, are deploying AIT. The Netherlands has 
        specifically announced the deployment of AIT units for all 
        U.S.-bound flights from Schiphol Airport. Additionally, Canada, 
        Denmark, Germany, France, Italy, Japan, Korea, Russia, Spain, 
        Ukraine, and the United Kingdom have all either deployed or 
        announced plans to conduct trial runs of AIT units in their 
        major airports. Domestically, TSA's deployment of AIT machines 
        incorporates vigorous privacy controls to protect passenger 
        privacy and ensure anonymity while ensuring operational 
        effectiveness.

  <bullet> Expansion of Federal Air Marshal Service (FAMS): The FAMS 
        deploys Federal Air Marshals on U.S. carrier flights worldwide 
        to detect, deter, and defeat hostile acts targeting U.S. air 
        carriers, airports, passengers, and crews. This past year, TSA 
        has finalized numerous Memoranda of Understanding (MOU) between 
        the United States and foreign countries to allow FAMS coverage 
        on U.S. carrier flights into and out of those countries. 
        Additionally, more than a dozen foreign countries have 
        developed their own air marshal programs for their national 
        carriers, including for flights to and from the United States. 
        We can expand on this initiative in a classified setting, and 
        we are happy to arrange a briefing for you or your staff.

  <bullet> Screening Air Cargo: As of August 1, 2010, 100 percent of 
        air cargo loaded on passenger flights originating in the United 
        States is screened for explosives. CBP and TSA are currently 
        working to address international inbound air cargo through a 
        combination of additional program requirements and coordination 
        with key partners on comparability of national cargo security 
        programs.

    All of these security enhancements have contributed substantially 
to bolstering international aviation security and mitigating threats to 
the nation.
Enhancing Information Gathering and Sharing
    Over the past 11 months, DHS has also worked to enhance information 
gathering and sharing processes to diminish vulnerabilities and 
mitigate threats to global aviation security. The following are several 
examples of enhanced information-gathering and sharing programs and 
processes:

  <bullet> 100 percent Watchlist Screening/Expansion of Secure Flight: 
        At the end of November, DHS achieved a major aviation security 
        milestone, and fulfilled a key 9/11 Commission recommendation 
        by assuming responsibility from the airlines for terrorist 
        watchlist screening for 100 percent of aircraft operators 
        covered by the Secure Flight Final rule for flights within, 
        from, or bound for the United States--a month ahead of 
        schedule. In addition to facilitating secure travel for all 
        passengers, the program helps prevent the misidentification of 
        passengers who have names similar to individuals on government 
        watchlists. Prior to Secure Flight, airlines held 
        responsibility for checking passengers against watchlists.

  <bullet> Improved Information Sharing: In April 2010, DHS launched a 
        new initiative to expand information-sharing capabilities among 
        its components on smuggling techniques and tactics. This 
        includes daily briefings to TSA frontline officers on 
        concealment techniques and tactics through a collaborative 
        information sharing process established among CBP, TSA, and 
        other DHS components. Additionally, TSA is in the process of 
        granting secret-level clearances to a greater number of TSA 
        employees, significantly enhancing TSA's ability to leverage 
        the best intelligence and maximize the benefits of information 
        sharing.

  <bullet> Expansion of CBP's Global Entry Program: Global Entry is a 
        program operated by CBP to allow for the expedited clearance of 
        pre-approved low-risk air travelers into the United States. The 
        Global Entry vetting process includes checking applicant data 
        against law enforcement databases and terrorist watchlist 
        (Terrorist Screening Data base) records, an in-depth interview 
        with a CBP officer, and an electronic collection of biometrics 
        that are checked against FBI and DHS biometric databases. 
        Participants are re-vetted every 24 hours to ensure no new 
        derogatory information has arisen. CBP is currently working 
        with several foreign customs/immigration administrations 
        (United Kingdom, Germany, France, Japan, Korea, Canada, and 
        Mexico) to develop agreements and arrangements supporting 
        expanded participation in Global Entry.

  <bullet> Expansion of Immigration Advisory Program (IAP): CBP works 
        with foreign governments to sign IAP arrangements to allow the 
        posting of CBP officers at international airports to review the 
        documents of U.S.-bound passengers to inform the boarding 
        decisions of airlines or foreign officials. Currently, IAP is 
        operational at 11 locations in nine countries, including the 
        Joint Security Program in Mexico.

  <bullet> Enhanced Science and Technology (S&T) Partnerships: DHS 
        continues to build upon and effectively leverage S&T agreements 
        with the United Kingdom, Canada, Australia, Sweden, Singapore, 
        Mexico, Germany, Israel, France, New Zealand, and the European 
        Commission to ensure that we have identified the most promising 
        aviation security technologies and techniques around the globe.

  <bullet> Expanded Electronic System for Travel Authorization (ESTA) 
        and Visa Waiver Program (VWP): The VWP, which allows citizens 
        from participating countries to travel to the United States for 
        up to 90 days without a visa, requires travelers to apply and 
        be screened for and receive travel authorization via ESTA 
        before boarding a U.S.-bound flight. As of November 30, 2010, a 
        total of 27,931,088 applications have been processed, with 
        approximately 0.33 percent denied.

    All of these initiatives have enhanced information-gathering and 
sharing processes to help improve international and domestic aviation 
security measures and diminish threats to global aviation security.
Coordinating International Technical Assistance
    Finally, in collaboration with ICAO and the Department of State, 
DHS continues to conduct extensive training with foreign counterparts 
to strengthen identified areas of weakness within a nation's aviation 
security environment. TSA has provided more than 30 training courses to 
30 foreign governments in the areas of cargo security, screening 
techniques for passengers and baggage, security management, and quality 
control. TSA also established the Aviation Security Sustainable 
International Standards Team initiative to provide the full spectrum of 
in-depth training and technical assistance. Successful programs have 
been conducted with Liberia and Saint Lucia, and an initial training 
needs assessment was performed in Yemen as part of a proposed project 
under the oversight of ICAO. TSA is also working with the European 
Civil Aviation Conference on a capacity development project with 
Georgia. Serving as an ICAO-approved training center, TSA provides 
several security workshops throughout the year on behalf of ICAO. An 
additional effort underway through ICAO involves coordination among 
contracting states to better identify capacity development needs around 
the world, leverage resources where possible, and ensure better overall 
collaboration and coordination within the international community for 
all training and capacity development activity.
    This past year, TSA collaborated with more than 100 foreign 
governments and more than 200 foreign air carriers to address aviation 
security threats and strengthen joint aviation security measures. TSA 
also conducted 133 airport assessments, including 14 surveys; 793 air 
carrier inspections, including 68 passenger cargo inspections; and 75 
cargo visits at international airports with flights to the United 
States. All of these initiatives have contributed to bolstering global 
aviation standards and mitigating threats to the nation.
Items for Consideration on the Way Forward
    Effectively responding to a global challenge like aviation security 
requires trust and collaboration between nations. Among our remaining 
challenges is the false notion that privacy and data protection 
standards in the United States and the European Union (EU) are 
irreconcilable. As a result, several bilateral agreements that would 
improve information sharing on known offenders remain unsigned and some 
EU officials are now looking to restrict one of the most powerful tools 
we have for identifying risks to our aviation system, the review of 
data from passenger name records (PNR)--information that passengers 
give to travel agencies and airlines to book flights and that is 
provided to CBP in advance of a flight to prescreen passengers who may 
pose a risk to our nation's security. This data is invaluable as 
evidenced by the fact that the United States has successfully used PNR 
more than 3,000 times in 2008 and 2009, including in the investigation 
of many of the most notable terrorist plots in the United States over 
the last year. Likewise, our ability to protect it has been proven 
through multiple reviews by U.S. authorities and with the EU.
    The United States is firmly committed to strong privacy protections 
that govern how we collect, store, and share information. At DHS, our 
Office for Civil Rights and Civil Liberties and our Privacy Office are 
involved in every step of the policymaking process, building in civil 
rights, civil liberties, and privacy protections to new security 
measures from the very beginning. For example, compliance documentation 
on all the DHS programs I have mentioned today is publicly available on 
our website. These Privacy Impact Assessments and Systems of Records 
Notices are a comprehensive review of new or proposed Department 
programs, systems, technologies or rule-makings that assess privacy 
risks, and recommend privacy protections and alternative methods for 
handling personally identifiable information (PII) to mitigate those 
risks. Additionally, privacy protections are not only included, but are 
central to every information-sharing agreement and program that we 
carry out with partner countries.
    DHS also continues to prioritize and improve the redress program 
for passengers who believe they have been misidentified or improperly 
delayed or prohibited from boarding an aircraft. All DHS aviation 
security programs use the results of the redress process to help 
prevent future misidentifications.
    In discussions with our foreign counterparts, we have continued to 
stress that stronger coordination with international allies will allow 
the United States to share information about terrorists and other 
dangerous individuals more effectively. This exchange will make all 
passengers safer. In a time of rapidly evolving threats from terrorism, 
we have to leave behind the false notion that civil liberties and 
security are opposing values.
Conclusion
    Over the past 11 months, we have made substantial progress in 
improving aviation security standards around the world. DHS has 
strengthened international partnerships, enacted key domestic and 
international security enhancements, and established benchmark 
international aviation security guidance. Evolving aviation security 
threats against the United States will continue to present new 
challenges. While we cannot eliminate all threats to aviation, we can 
mitigate these threats as we continue to improve domestic and 
international aviation security measures.
    This past year, DHS concluded our nation's first ever Quadrennial 
Homeland Security Review. In it we set forth a vision of a safe, 
secure, and resilient homeland where American interests, aspirations, 
and way of life can thrive. We articulated clear missions, goals, and 
objectives to accomplish this vision. In the end, we concluded that we 
all must play a role to protect our nation--and in the commitment of 
each, we will secure the homeland for all. That same conclusion is true 
for all of those who comprise the international aviation system: in the 
commitment of each, we will secure the system for all.
    DHS appreciates the support that this Committee has shown for our 
work on improving aviation security measures internationally and 
domestically. We have been able to make the progress we have in part 
because of your steadfast support to enhance aviation security 
standards and we look forward to working with you further on these 
efforts. Thank you again for the opportunity to testify. We are happy 
to take any questions you may have.

    Senator Dorgan. Mr. Heyman, thank you very much for your 
testimony.
    Next we will hear from Ms. Vicki Reeder, TSA Office of 
Global Strategies. Ms. Reeder, you may proceed.

         STATEMENT OF VICKI REEDER, DIRECTOR OF GLOBAL

            COMPLIANCE, OFFICE OF GLOBAL STRATEGIES,

            TRANSPORTATION SECURITY ADMINISTRATION,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Reeder. Chairman Dorgan, Chairman Rockefeller, Senator 
Johanns, and Senator Lautenberg: Thank you very much for the 
opportunity to testify before you today on the topic of efforts 
to improve aviation security standards.
    The Transportation Security Administration is a component 
agency within DHS charged with protecting the nation's 
transportation systems. In addition to travel within and from 
the United States, TSA ensures that robust security is applied 
to all U.S. airlines regardless of where they're flying and to 
all flights operating directly to the U.S. With a daily network 
of thousands of flights linked across the globe, the security 
and performance of our individual operations are only as strong 
as those of our international partners.
    Within TSA, the Office of Global Strategies, or OGS, works 
with the international partners to ensure that that security is 
established and maintained. OGS conducts these efforts through 
three primary missions. The first one is compliance, which I'll 
explain, and that's the one of which I'm the director. We 
conduct outreach and engagement and we conduct capacity 
development.
    We use a risk-based approach that looks at the threat, the 
vulnerability, and the consequence in place for each of the 
flights and at each of the airports that provide the service 
that we evaluate. In compliance, my group identifies and 
evaluates the risk that is in place, the threat and the 
vulnerability that's in place at each of the airports that 
we've been charged to evaluate. We look at all airports, all 
300-plus airports, from which U.S. air carriers operate, those 
from which foreign air carriers operate to the United States, 
those that pose a high risk to international air travel, and 
those that we've been informed to do so by the Secretary of 
Homeland Security.
    OGS has five regional operations centers and approximately 
65 inspectors who perform all this work. The 300 airports are 
visited on a 1- to 3-year interval depending on the amount of 
risk that has been identified associated with those airports. 
The evaluations at those airports are based on International 
Civil Aviation Organization, or ICAO, standards and recommended 
practices. So these are the international requirements for the 
airport assessments.
    OGS also conducts inspections of every air carrier that 
flies to the United States and every U.S. air carrier operation 
around the world, regardless of where they're flying. Our 
evaluations of those operations are based on TSA regulations. 
Those regulations are codified in the standard security 
programs, the security directives, and the emergency 
amendments. These are the mechanisms through which TSA is able 
to regulate, able to direct activities be taken at foreign 
countries and foreign airports.
    Through our outreach and engagement efforts, we work with 
international counterparts at the global, the regional and at 
the bilateral levels. At the global level, we work very closely 
with the International Civil Aviation Organization and our 
focus is on enhancing baseline international security 
standards. At the regional and bilateral levels, we deploy TSA 
representatives at locations throughout the world to work on 
developing effective transportation security measures, share 
best practices, and coordinate implementation of appropriate 
responses when new and emerging threats arise.
    OGS also conducts outreach and engagement with the airline 
industry, especially with the foreign air carriers. Other 
components of TSA work with the U.S. carriers. OGS works with 
the foreign carriers and with the associations. We ensure that 
the necessary security requirements are implemented and that 
airlines are alerted to the threats as best we can.
    Finally, capacity development is the third leg of our stool 
at TSA. We help partners build sustainable aviation security 
practices through this capacity development effort. We have a 
team of instructors and inspectors who are able to go to 
various countries, to various airports, evaluate their security 
posture, identify areas where they need additional help, and 
then we work with State Department, Organization of American 
States, and other funding sources to get the mechanisms to be 
able to pay for extended support to various locations.
    Two such locations were St. Lucia and Liberia, but we've 
been working extensively with Yemen. In fact, we have a team in 
Sanaa that leaves tomorrow. They had been there for 2 weeks 
early in November working with the Yemenese and we have a 
program that will be starting up in the very near future that 
will be an 18-month program with Yemen.
    In the past 11 months, we've taken a number of initiatives 
that have enabled us to make gains on compliance, in outreach 
and engagement, and in capacity development. For example, we've 
deployed personnel to the Winter Games in Vancouver, to the 
FIFA World Cup, and to Haiti following the earthquake.
    In areas of outreach and engagement, we've signed 
agreements with ICAO for additional seconded positions and 
we've exchanged liaison officers with foreign governments. In 
the area of capacity development, we have concluded the efforts 
in St. Lucia and we're about to conclude the efforts in 
Liberia.
    We look forward to your questions and I defer to Mr. Lord 
for the additional GAO comments.
    Senator Dorgan. Ms. Reeder, thank you very much for your 
testimony.
    Next we will hear from Mr. Stephen Lord. He represents the 
Government Accountability Office and he is the Director of 
Homeland Security and Justice Issues in that office. Mr. Lord.

            STATEMENT OF STEPHEN M. LORD, DIRECTOR,

             HOMELAND SECURITY AND JUSTICE ISSUES,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you, Mr. Chairman. I as well am honored to 
appear at your last hearing that you chair, and we also wanted 
to thank you for your years of service.
    Today I would like to discuss U.S. efforts to harmonize 
aviation security standards with those of other nations. As the 
other witness mentioned, the December 25 terrorist incident in 
Detroit and the recent air cargo incident in Yemen underscore 
the importance of undertaking efforts to harmonize these 
standards. Today I'd like to do essentially two things: discuss 
DHS and TSA's progress in harmonizing international aviation 
standards and practices, as well as discuss some of the related 
challenges they encounter in doing so.
    One of the key messages I wanted to convey today is TSA and 
DHS have taken several important steps over these last few 
weeks and months. At the same time, I think it's important to 
point out that harmonization is not a new concept. These 
efforts have been ongoing for many years and progress has been 
incremental and deliberate.
    For example, the first amendment to the ICAO annex on 
aviation security was adopted in 1976. The latest amendment, 
Amendment 12, was approved last month after 3 years of patient 
negotiation. In terms of progress and as noted by Mr. Heyman, 
the Secretary of Homeland Security has participated in five 
regional summits since the beginning of the year. The security 
principles espoused during these regional summits form the 
basis for ICAO's September Declaration on Aviation Security. 
This is a very significant achievement.
    In this declaration, all ICAO participants agree to 
undertake efforts to strengthen security screening procedures, 
utilize modern technologies to better detect explosives and 
dangerous items, as well as provide technical assistance to 
those in need.
    It's also worth noting that TSA plays a very important role 
in these harmonization efforts. For example, TSA has been at 
the forefront of efforts to encourage other countries to adopt 
advanced imaging technology, the so-called body scanners, and 
at least 13 other nations are now testing or deploying these 
scanners or have committed to deploying them in the near 
future.
    The agency has also worked closely with foreign governments 
in drafting the latest amendment to the ICAO annex on aviation 
security. A major focus of the recent negotiations is air 
cargo. As GAO recently reported, however, harmonizing air cargo 
standards is extremely difficult because of the global nature 
of the air cargo supply chain as well as other regulatory and 
logistical challenges and the number of players involved. As 
the TSA Administrator noted in a recent hearing before this 
committee, TSA is going to need several more years before it 
can effectively ensure that all inbound air cargo--that's air 
cargo coming, flying into our country--is fully screened in 
accordance with 9/11 Act requirements.
    It's important--I'd like to give Ms. Reeder a nod. It's 
important that the TSA's foreign airport assessment program 
helps achieve these broad harmonization goals through the 
foreign airport assessment program she manages. Through the 
program, TSA reviews the security practices of foreign airports 
and they help identify where a country might need additional 
security training and technical assistance. We think that's a 
very useful expenditure of TSA resources. We'll have more to 
say about this program next year. We're currently doing a 
comprehensive audit and we expect to report out on this 
probably the middle of next year.
    At the same time, I'd like to also highlight a number of 
challenges that DHS and TSA face in their efforts to harmonize. 
First, harmonization depends on the voluntary participation of 
foreign countries, which as sovereign nations cannot be 
compelled to implement specific security standards. Second, 
many developing countries do not have the financial resources 
or human capital to enhance their security programs in a manner 
that's consistent with our expectations.
    And third, legal and cultural factors sometimes inhibit 
harmonization efforts. I think a great example is some of the 
recent concerns that countries across the world have expressed 
about adopting body scanners. They've expressed concerns 
related to privacy and health.
    In closing, the recent air cargo plot demonstrates that 
enhancing aviation security is a shared responsibility among 
U.S., foreign, and industry stakeholders. The harmonization 
efforts we're discussing today should be considered part of our 
nation's strategy for improving aviation security and deterring 
future threats. However, other elements include timely 
intelligence, effective technology, well trained and capable 
staff, and regular oversight such as conducted by this 
committee.
    Mr. Chairman, that concludes my statement. I look forward 
to your questions.
    [The prepared statement of Mr. Lord follows:]

Prepared Statement of Stephen M. Lord, Director, Homeland Security and 
         Justice Issues, U.S. Government Accountability Office
    Mr. Chairman and members of the Subcommittee:
    I appreciate the opportunity to participate in today's hearing to 
discuss the Department of Homeland Security's (DHS) efforts to work 
with foreign partners to enhance international aviation security. The 
December 25, 2009, attempt to detonate an explosive during an 
international flight bound for Detroit, and the October 2010 discovery 
of explosive devices in air cargo packages bound for the United States 
from Yemen, provide vivid reminders that civil aviation remains a key 
terrorist target and highlight the importance of working with foreign 
partners to enhance international aviation security. In response to the 
December 2009 incident, the Transportation Security Administration 
(TSA) mandated enhanced security measures for air carriers at United 
States airports and for all international flights--prior to departure--
bound for the United States.\1\ Additionally, the President directed 
DHS to take a number of steps to enhance aviation security including 
strengthening international coordination on aviation security issues 
and pursuing enhanced screening technology, protocols, and procedures. 
Following the October 2010 bomb attempt in cargo originating in Yemen, 
TSA also implemented additional security requirements to enhance air 
cargo security.\2\
---------------------------------------------------------------------------
    \1\ See, for example, TSA, SD 1544-09-06E (Apr. 2, 2010); EA 1546-
09-01D (Jan. 3, 2010).
    \2\ On November 8, 2010, DHS announced security measures in 
response to the Yemen incident. Specifically, TSA banned cargo 
originating from Yemen and Somalia from transport into the United 
States; banned the transport of cargo deemed high-risk on passenger 
aircraft; prohibited the transport of toner and ink cartridges weighing 
16 ounces or more on passenger aircraft in carry-on and checked 
luggage; and required additional screening of high-risk cargo prior to 
transport on an all-cargo aircraft.
---------------------------------------------------------------------------
    To this end, DHS has increased its ongoing efforts to work with 
foreign partners to coordinate security standards and practices among 
nations--a process known as harmonization. Harmonization, as defined by 
DHS, refers to countries' efforts to coordinate their security 
standards and practices to enhance security as well as the mutual 
recognition and acceptance of existing security standards and practices 
aimed at achieving the same security outcome.\3\ TSA also facilitates 
compliance with existing international standards and practices by 
coordinating assessments of foreign airports with foreign nations. 
Through its foreign airport assessment program, and using international 
standards and recommended practices, TSA determines whether foreign 
airports that provide service to the United States are maintaining and 
carrying out effective security measures.
---------------------------------------------------------------------------
    \3\ For the purposes of this statement, ``standards and practices'' 
refers to statutory, regulatory and other requirements as well as any 
measures or practices imposed or followed by a country to secure its 
civil aviation system. This general term encompasses the International 
Civil Aviation Organization (ICAO) ``standards and recommended 
practices'' also referred to in this statement.
---------------------------------------------------------------------------
    The Aviation and Transportation Security Act (ATSA), enacted into 
law shortly after the September 11, 2001, terrorist attacks, 
established TSA and gave the agency responsibility for securing all 
modes of transportation, including the nation's civil aviation system, 
which includes air carrier operations (domestic and foreign) to, from, 
and within the United States.\4\ For example, ATSA requires that TSA 
provide for the screening of all passengers and property, including air 
cargo, transported on passenger aircraft.\5\ ATSA further requires that 
a system be in operation to screen, inspect, or otherwise ensure the 
security of the cargo transported by all-cargo aircraft--aircraft that 
carry only cargo and no passengers--to, from, and within the United 
States.\6\ TSA also assesses the effectiveness of security measures at 
foreign airports served by a United States air carrier, or from which a 
foreign air carrier serves the United States, at intervals deemed 
appropriate by the Secretary of Homeland Security.\7\ TSA further 
requires that domestic and foreign air carriers with operations to, 
from, or within the United States establish and maintain TSA-approved 
security programs and comply with any applicable security directives or 
emergency amendments to air carrier security programs.\8\
---------------------------------------------------------------------------
    \4\ See Pub. L. No. 107-71, 115 Stat. 597 (2001).
    \5\ See Pub. L. No. 107-71,  110(b), 115 Stat. at 614-15 (codified 
as amended at 49 U.S.C.  44901). The U.S. Customs and Border 
Protection (CBP) also plays a role in securing inbound cargo by 
selectively screening cargo upon its arrival in the United States. CBP 
has primary responsibility for preventing terrorists and implements of 
terrorism from entering the United States. CBP is currently 
coordinating with TSA to determine the feasibility of using CBP's 
Automated Targeting System--a system used by DHS to match travelers and 
goods against certain screening information and intelligence--to 
support TSA's efforts toward screening 100 percent of inbound air 
cargo. In discussing how a system to target certain shipments for 
screening will fit into TSA's overall plans to screen 100 percent of 
inbound air cargo, officials stated that ATS would provide an 
additional layer of scrutiny for all cargo entering the United States.
    \6\ See 49 U.S.C.  44901(f) (requiring the system to be in 
operation as soon as practicable after the date of enactment--November 
19, 2001--but without establishing a firm deadline).
    \7\ See 49 U.S.C.  44907. While  44907 requires that TSA conduct 
foreign airport assessments at intervals deemed necessary, in practice 
TSA may not perform an assessment of security measures at a foreign 
airport without permission from the host government.
    \8\ See 49 U.S.C.  44903, 44906; 49 C.F.R. pts. 1544-46. TSA also 
conducts security inspections of foreign and United States-based air 
carriers with service to the United States from foreign countries to 
ensure compliance with applicable security requirements, including 
those set forth in the air carriers' TSA-approved security programs.
---------------------------------------------------------------------------
    On a global basis, the International Civil Aviation Organization 
(ICAO), a specialized agency of the United Nations representing 190 
countries, has established security standards and recommended practices 
to help ensure a minimum baseline level of international aviation 
security among member nations.\9\ These international aviation security 
standards and recommended practices are detailed in Annex 17 to the 
Convention on International Civil Aviation, as adopted by ICAO. 
Although TSA security requirements generally encompass (and in several 
instances exceed) the ICAO standards and recommended practices, the 
ICAO standards and recommended practices are broad and open to 
different interpretations. As such, there are wide variations among the 
aviation security practices adopted by ICAO member nations. For 
example, some nations require passengers to remove their shoes for 
screening at airport passenger checkpoints while others do not. TSA 
officials stated that countries may utilize different approaches to 
achieve the same outcome and that DHS and TSA work closely with their 
international partners and with other U.S. agencies, such as the U.S. 
Department of State (State), to enhance existing international 
standards and practices through harmonization efforts.
---------------------------------------------------------------------------
    \9\ ICAO is responsible for the safe, orderly, and efficient 
development of international civil aviation. ICAO was formed following 
the 1944 Convention on International Civil Aviation (the Chicago 
Convention). Signatory nations to the ICAO convention agree to 
cooperate with other member states to meet standardized international 
aviation measures. An ICAO standard is a specification for the safety 
or regularity of international air navigation, with which member states 
agree to comply; whereas, a recommended practice is any desirable 
specification for safety, regularity, or efficiency of international 
air navigation, with which member states are strongly encouraged to 
comply. Member states are expected to make a genuine effort to comply 
with recommended practices.
---------------------------------------------------------------------------
    My testimony today discusses DHS's progress and challenges in 
enhancing international aviation security standards and practices 
through harmonization efforts and facilitating compliance with ICAO 
standards and recommended practices. My comments are based, in part, on 
our prior reports and testimonies issued from April 2007 through June 
2010 addressing the security of the passenger and air cargo 
transportation system.\10\ For these reports, we reviewed relevant 
documents related to the programs reviewed and interviewed cognizant 
DHS and TSA officials. In addition, we obtained updated information in 
September 2010 on TSA's efforts to address recommendations we made in 
2007 to improve its foreign airport assessments program. More detailed 
information on our scope and methodology appears in our published 
reports.
---------------------------------------------------------------------------
    \10\ See GAO, Aviation Security: Progress Made but Actions Needed 
to Address Challenges in Meeting the Air Cargo Screening Mandate, GAO-
10-880T (Washington, D.C.: Jun. 30, 2010); Aviation Security: TSA Has 
Made Progress but Faces Challenges in Meeting the Statutory Mandate for 
Screening Air Cargo on Passenger Aircraft, GAO-10-446 (Washington, 
D.C.: Jun. 28, 2010); Aviation Security: TSA Is Increasing Procurement 
and Deployment of the Advanced Imaging Technology, but Challenges to 
This Effort and Other Areas of Aviation Security Remain, GAO-10-484T 
(Washington, D.C.: Mar. 17, 2010); Homeland Security: Better Use of 
Terrorist Watchlist Information and Improvements in Deployment of 
Passenger Screening Checkpoint Technologies Could Further Strengthen 
Security, GAO-10-401T (Washington, D.C.: Jan. 27, 2010); Aviation 
Security: DHS and TSA Have Researched, Developed, and Begun Deploying 
Passenger Checkpoint Screening Technologies, but Continue to Face 
Challenges, GAO-10-128 (Washington, D.C.: Oct. 7, 2009); Aviation 
Security: Preliminary Observations on TSA's Progress and Challenges in 
Meeting the Statutory Mandate for Screening Air Cargo on Passenger 
Aircraft, GAO-09-422T (Washington, D.C.: Mar. 18, 2009); Aviation 
Security: Foreign Airport Assessments and Air Carrier Inspections Help 
Enhance Security, but Oversight of These Efforts Can Be Strengthened, 
GAO-07-729 (Washington, D.C.: May 11, 2007); and Aviation Security: 
Federal Efforts to Secure U.S.-Bound Air Cargo Are in the Early Stages 
and Could Be Strengthened, GAO-07-660 (Washington, D.C.: Apr. 30, 
2007).
---------------------------------------------------------------------------
    This statement is also partly based on observations from our work--
conducted from April 2010 through November 2010--assessing the progress 
that DHS and its component agencies have made in enhancing 
international aviation, and ongoing work assessing TSA's foreign 
airport assessment program, which will be issued next year. To conduct 
this work we reviewed relevant documents related to TSA's passenger 
screening, air cargo security, and foreign airport assessment programs 
including TSA aviation security policies and procedures, as well as 
ICAO aviation security standards and recommended practices, and working 
group documents. We also interviewed cognizant DHS and TSA program 
officials, foreign aviation officials from Australia, Canada, the 
European Union (EU), France, the United Kingdom, and the Netherlands, 
and representatives from international organizations such as ICAO and 
international aviation industry associations. While information 
obtained from our interviews with foreign aviation officials and 
aviation industry representatives cannot be generalized beyond those 
contacted because we did not use a probability sampling method to 
select these officials for interviews, the officials we interviewed 
provided important perspectives on efforts to enhance international 
aviation security. All of our prior work, as well as the results of our 
ongoing work, used for this statement was conducted in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
DHS Has Made Progress in Its Efforts to Harmonize International 
        Aviation Security Standards and Practices and to Facilitate 
        Compliance through Foreign Airport Assessments, but Can Further 
        Strengthen Assessment Efforts
DHS Has Made Progress in Its Efforts to Harmonize International 
        Aviation Security Standards and Practices
    DHS has increased its global outreach efforts. Historically, DHS 
and its components, working with state, have coordinated with foreign 
partners on an ongoing basis to promote aviation security enhancements 
through ICAO and other multilateral and bilateral outreach efforts. For 
example, DHS and TSA have coordinated through multilateral groups such 
as the European Commission and the Quadrilateral Group--comprising the 
United States, the EU, Canada, and Australia--to establish agreements 
to develop commensurate air cargo security systems. On a bilateral 
basis, the United States has participated in various working groups to 
facilitate coordination on aviation security issues with several 
nations, such as those that make up the EU, Canada, and Japan. The 
United States has also established bilateral cooperative agreements to 
share information on security technology with the United Kingdom, 
Germany, France, and Israel, among others.\11\ In addition, TSA has 
finalized agreements with ICAO to provide technical expertise and 
assistance to ICAO in the areas of capacity building and security 
audits, and serves as the United States' technical representative on 
ICAO's Aviation Security Panel and the panel's various Working Groups.
---------------------------------------------------------------------------
    \11\ For example, in January 2010 the United States signed an 
Agreement on Science and Technology Cooperation with New Zealand to 
establish a framework to encourage, develop, and facilitate bilateral 
coordination in science and technology by means that include, but are 
not limited to, facilitating a systematic exchange of technologies, 
personnel, and information, as well as collaborating to develop 
technologies and prototype systems that assist in countering present 
and anticipated terrorist actions.
---------------------------------------------------------------------------
    In the wake of the December 2009 incident, DHS increased its 
outreach efforts. For example, to address security gaps highlighted by 
the December incident, DHS has coordinated with Nigeria to deploy 
Federal Air Marshals on flights operated by U.S. carriers bound for the 
United States from Nigeria. Further, in early 2010, the Secretary of 
Homeland Security participated in five regional summits--Africa, the 
Asia/Pacific region, Europe, the Middle East, and the Western 
Hemisphere--with the Secretary General of ICAO, foreign ministers and 
aviation officials, and international industry representatives to 
discuss current aviation security threats and develop an international 
consensus on the steps needed to address remaining gaps in the 
international aviation security system.\12\ Each of these summits 
resulted in a Joint Declaration on Aviation Security in which, 
generally, the parties committed to work through ICAO and on an 
individual basis to enhance aviation security. Subsequently, during the 
September 2010 ICAO Assembly, the 190 member states adopted a 
Declaration on Aviation Security, which encompassed the principles of 
the Joint Declarations produced by the five regional summits.\13\ 
Through the declaration, member states recognized the need to 
strengthen aviation security worldwide and agreed to take nine actions 
to enhance international cooperation to counter threats to civil 
aviation, which include, among other things:
---------------------------------------------------------------------------
    \12\ Regional summits were held in Abuja, Nigeria; Tokyo, Japan; 
Mexico City, Mexico; Abu Dhabi, United Arab Emirates, and Toledo, 
Spain. In addition, the Secretary of Homeland Security and the ICAO 
Secretary General met with industry representatives from the 
International Air Transport Association (IATA) in Geneva, Switzerland.
    \13\ ICAO's member nations--the Assembly--meet at least once every 
3 years, at which time member states establish ICAO policy for the 
following 3 years.

  <bullet> strengthening and promoting the effective application of 
        ICAO Standards and Recommended Practices, with particular focus 
        on Annex 17, and developing strategies to address current and 
---------------------------------------------------------------------------
        emerging threats;

  <bullet> strengthening security screening procedures, enhancing human 
        factors, and utilizing modern technologies to detect prohibited 
        articles and support research and development of technology for 
        the detection of explosives, weapons, and prohibited articles 
        in order to prevent acts of unlawful interference;

  <bullet> developing and implementing strengthened and harmonized 
        measures and best practices for air cargo security, taking into 
        account the need to protect the entire air cargo supply chain; 
        and

  <bullet> providing technical assistance to states in need, including 
        funding, capacity building, and technology transfer to 
        effectively address security threats to civil aviation, in 
        cooperation with other states, international organizations and 
        industry partners.

    TSA has increased coordination with foreign partners to enhance 
security standards and practices. In response to the August 2006 plot 
to detonate liquid explosives on board commercial air carriers bound 
for the United States, TSA initially banned all liquids, gels, and 
aerosols from being carried through the checkpoint and, in September 
2006, began allowing passengers to carry on small, travel-size liquids 
and gels (3 fluid ounces or less) using a single quart-size, clear 
plastic, zip-top bag. In November 2006, in an effort to harmonize its 
liquid-screening standards with those of other countries, TSA revised 
its procedures to match those of other select nations. Specifically, 
TSA began allowing 3.4 fluid ounces of liquids, gels, and aerosols 
onboard aircraft, which is equivalent to 100 milliliters--the amount 
permitted by the EU and other countries such as Canada and Australia. 
This harmonization effort was perceived to be a success and ICAO later 
adopted the liquid, gels, and aerosol screening standards and 
procedures implemented by TSA and other nations as a recommended 
practice.
    TSA has also worked with foreign governments to draft international 
air cargo security standards. According to TSA officials, the agency 
has worked with foreign counterparts over the last 3 years to draft 
Amendment 12 to ICAO's Annex 17, and to generate support for its 
adoption by ICAO members. The amendment, which was adopted by the ICAO 
Council in November 2010, will set forth new standards related to air 
cargo such as requiring members to establish a system to secure the air 
cargo supply chain (the flow of goods from manufacturers to 
retailers).\14\ TSA has also supported the International Air Transport 
Association's (IATA) efforts to establish a secure supply chain 
approach to screening cargo for its member airlines and to have these 
standards recognized internationally.\15\ Moreover, following the 
October 2010 bomb attempt in cargo originating in Yemen, DHS and TSA, 
among other things, reached out to international partners, IATA, and 
the international shipping industry to emphasize the global nature of 
transportation security threats and the need to strengthen air cargo 
security through enhanced screening and preventative measures. TSA also 
deployed a team of security inspectors to Yemen to provide that 
country's government with assistance and guidance on their air cargo 
screening procedures.
---------------------------------------------------------------------------
    \14\ According to ICAO officials, ICAO member nations have yet to 
vote on final approval of Amendment 12. If approved by ICAO members, 
Amendment 12 to Annex 17 will become effective in March 2011 and 
applicable in July 2010.
    \15\ IATA is an international trade body that represents 230 
airlines comprising 93 percent of scheduled international air traffic. 
IATA's approach, called Secure Freight, is an attempt to create an air 
cargo industry comprising certified secure operators in secure supply 
chains operating to international cargo security standards recognized 
by relevant state authorities. A pilot test of the Secure Freight 
program began in the first half of 2010.
---------------------------------------------------------------------------
    In addition, TSA has focused on harmonizing air cargo security 
standards and practices in support of its statutory mandate to 
establish a system to physically screen 100 percent of cargo on 
passenger aircraft--including the domestic and inbound flights of 
United States and foreign passenger operations--by August 2010.\16\ In 
June 2010 we reported that TSA has made progress in meeting this 
mandate as it applies to domestic cargo, but faces several challenges 
in meeting the screening mandate as it applies to inbound cargo,\17\ 
related, in part, to TSA's limited ability to regulate foreign 
entities.\18\ As a result, TSA officials stated that the agency would 
not be able to meet the mandate as it applies to inbound cargo by the 
August 2010 deadline. We recommended that TSA develop a plan, with 
milestones, for how and when the agency intends to meet the mandate as 
it applies to inbound cargo. TSA concurred with this recommendation 
and, in June 2010, stated that agency officials were drafting 
milestones as part of a plan that would generally require air carriers 
to conduct 100 percent screening by a specific date. At a November 2010 
hearing before the Senate Committee on Commerce, Science, and 
Transportation, the TSA Administrator testified that TSA aims to meet 
the 100 percent screening mandate as it applies to inbound air cargo by 
2013.
---------------------------------------------------------------------------
    \16\ Pub. L. No. 110-53,  1602, 121 Stat. 266, 477-80 (2007) 
(codified at 49 U.S.C.  44901(g)).
    \17\ For the purposes of this statement, domestic cargo refers to 
cargo transported by air within the United States and from the United 
States to a foreign location by both United States and foreign-based 
air carriers, and inbound cargo refers to cargo transported by air from 
a foreign location to the United States.
    \18\ GAO-10-446; GAO-10-880T.
---------------------------------------------------------------------------
    In November 2010, TSA officials stated that the agency is 
coordinating with foreign countries to evaluate the comparability of 
their air cargo security requirements with those of the United States, 
including the mandated screening requirements for inbound air cargo on 
passenger aircraft. According to TSA officials, the agency has begun to 
develop a program that would recognize the air cargo security programs 
of foreign countries if TSA deems those programs provide a level of 
security commensurate with TSA's programs. In total, TSA plans to 
coordinate with about 20 countries, which, according to TSA officials, 
were selected in part because they export about 90 percent of the air 
cargo transported to the United States on passenger aircraft. According 
to officials, TSA has completed a 6-month review of France's air cargo 
security program and is evaluating the comparability of France's 
requirements with those of the United States. TSA officials also said 
that, as of November 2010, the agency has begun to evaluate the 
comparability of air cargo security programs for the United Kingdom, 
Israel, Japan, Singapore, New Zealand, and Australia, and plans to work 
with Canada and several EU countries in early 2011. TSA expects to work 
with the remaining countries through 2013.
    TSA is working with foreign governments to encourage the 
development and deployment of enhanced screening technologies. TSA has 
also coordinated with foreign governments to develop enhanced screening 
technologies that will detect explosive materials on passengers. 
According to TSA officials, the agency frequently exchanges information 
with its international partners on progress in testing and evaluating 
various screening technologies, such as bottled-liquid scanner systems 
and advanced imaging technology (AIT).\19\ In response to the December 
2009 incident, the Secretary of Homeland Security has emphasized 
through outreach efforts the need for nations to develop and deploy 
enhanced security technologies.
---------------------------------------------------------------------------
    \19\ AITs produce an image of a passenger's body that security 
personnel use to look for anomalies, such as explosives. See GAO-10-
484T.
---------------------------------------------------------------------------
    Following TSA's decision to accelerate the deployment of AIT in the 
United States, the Secretary has encouraged other nations to consider 
using AIT units to enhance the effectiveness of passenger screening 
globally. As a result, several nations, including Australia, Canada, 
Finland, France, the Netherlands, Nigeria, Germany, Poland, Japan, 
Ukraine, Russia, Republic of Korea, and the UK, have begun to test or 
deploy AIT units or have committed to deploying AITs at their airports. 
For example, the Australian Government has committed to introducing AIT 
at international terminals in 2011. Other nations, such as Argentina, 
Chile, Fiji, Hong Kong, India, Israel, Kenya, New Zealand, Singapore, 
and Spain are considering deploying AIT units at their airports on a 
limited basis. In addition, TSA hosted an international summit in 
November 2010 that brought together approximately 30 countries that are 
deploying or considering deploying AITs at their airports to discuss 
AIT policy, protocols, best practices, as well as safety and privacy 
concerns. However, as discussed in our March 2010 testimony, TSA's use 
of AIT has highlighted several challenges relating to privacy, costs, 
and effectiveness that remain to be addressed.\20\ For example, because 
the AIT presents a full-body image of a person during the screening 
process, concerns have been expressed that the image is an invasion of 
privacy.\21\ Furthermore, as noted in our March 2010 testimony, it 
remains unclear whether the AIT would have been able to detect the 
weapon used in the December 2009 incident based on the preliminary TSA 
information we have received.\22\ We will continue to explore these 
issues as part of our ongoing review of TSA's AIT deployment, and 
expect the final report to be issued in the spring of 2011.\23\
---------------------------------------------------------------------------
    \20\ GAO-10-484T.
    \21\ In October 2010, TSA adopted ``enhanced patdown'' procedures 
for passengers who decline to be screened using the AIT, which have 
also raised privacy concerns.
    \22\ GAO-10-484T.
    \23\ Our ongoing review of TSA's procurement and deployment of AIT 
units is requested by Senator George V. Voinovich and Representative 
John Mica, Ranking-Republican Member, House Committee on Transportation 
and Infrastructure.
---------------------------------------------------------------------------
DHS Has Made Progress in Its Efforts to Facilitate Compliance with ICAO 

        Standards through Foreign Airport Assessments but Can Further 
        Strengthen Its Efforts
    TSA conducts foreign airport assessments. TSA efforts to assess 
security at foreign airports--airports served by U.S. aircraft 
operators and those from which foreign air carriers operate service to 
the United States--also serve to strengthen international aviation 
security. Through TSA's foreign airport assessment program, TSA 
utilizes select ICAO standards to assess the security measures used at 
foreign airports to determine if they maintain and carry out effective 
security practices.\24\ TSA also uses the foreign airport assessment 
program to help identify the need for, and secure, aviation security 
training and technical assistance for foreign countries. In addition, 
during assessments, TSA provides on-site consultations and makes 
recommendations to airport officials or the host government to 
immediately address identified deficiencies. In our 2007 review of 
TSA's foreign airport assessment program,\25\ we reported that of the 
128 foreign airports that TSA assessed during Fiscal Year 2005, TSA 
found that 46 (about 36 percent) complied with all ICAO standards, 
whereas 82 (about 64 percent) did not meet at least one ICAO 
standard.\26\
---------------------------------------------------------------------------
    \24\ For the purposes of this testimony we refer to both standards 
and recommended practices as standards. TSA officials said that when 
conducting airport assessments they focus on 17 ICAO standards the 
agency deems most critical. TSA assessment teams coordinate with State 
to arrange briefings for host government and airport officials at the 
beginning of an assessment and to schedule exit briefings for the 
officials at the end of the assessment, during which a synopsis of the 
assessment results is presented. TSA also coordinates with State to 
provide aviation security training to host nations. For example, State 
uses TSA instructors to teach an airport security course that is 
provided to officials from host nations through the department's Anti-
Terrorism Assistance (ATA) program.
    \25\ GAO-07-729.
    \26\ For the 82 foreign airports that did not meet at least 1 ICAO 
standard, the average number of standards not met was about 5, and the 
number of standards not met by an individual airport ranged from 1 to 
22. The most common area of noncompliance for foreign airports was 
related to quality control--mechanisms to assess and address security 
vulnerabilities at airports. After the Secretary of Homeland security 
determined that 2 of the 128 foreign airports TSA assessed were not 
maintaining and carrying out effective security measures, DHS notified 
the general public of these determinations by the Secretary in 
accordance with 49 U.S.C.  44907(d). In 2007 TSA assessed security 
against 86 of 106 ICAO aviation security standards and practices.
---------------------------------------------------------------------------
    In our 2007 review we also reported that TSA had not yet conducted 
its own analysis of its foreign airport assessment results, and that 
additional controls would help strengthen TSA's oversight of the 
program. Moreover, we reported, among other things, that TSA did not 
have controls in place to track the status of scheduled foreign airport 
assessments, which could make it difficult for TSA to ensure that 
scheduled assessments are completed. We also reported that TSA did not 
consistently track and document host government progress in addressing 
security deficiencies identified during TSA airport assessments. As 
such, we made several recommendations to help TSA strengthen oversight 
of its foreign airport assessment program, including, among other 
things, that TSA develop controls to track the status of foreign 
airport assessments from initiation through completion; and develop a 
standard process for tracking and documenting host governments' 
progress in addressing security deficiencies identified during TSA 
assessments. TSA agreed with our recommendations and provided plans to 
address them. Near the end of our 2007 review, TSA had begun work on 
developing an automated database to track airport assessment 
results.\27\ In September 2010 TSA officials told us that they are now 
exploring ways to streamline and standardize that automated database, 
but will continue to use it until a more effective tracking mechanism 
can be developed and deployed. We plan to further evaluate TSA's 
implementation of our 2007 recommendations during our ongoing review of 
TSA's foreign airport assessment program, which we plan to issue in the 
fall of 2011.
---------------------------------------------------------------------------
    \27\ GAO-07-729.
---------------------------------------------------------------------------
Challenges Related to the Harmonization Process and TSA's Foreign 
        Airport Assessment Program May Affect DHS's Progress
Challenges Related to Harmonization
    A number of key challenges, many of which are outside of DHS's 
control, could impede its ability to enhance international aviation 
security standards and practices. Agency officials, foreign country 
representatives, and international association stakeholders we 
interviewed said that these challenges include, among other things, 
nations' voluntary participation in harmonization efforts, differing 
views on aviation security threats, varying global resources, and legal 
and cultural barriers. According to DHS and TSA officials, these are 
long-standing global challenges that are inherent in diplomatic 
processes such as harmonization, and will require substantial and 
continuous dialogue with international partners. As a result, according 
to these officials, the enhancements that are made will likely occur 
incrementally, over time.
    Harmonization depends on voluntary participation. The framework for 
developing and adhering to international aviation standards is based on 
voluntary efforts from individual states. While TSA may require that 
foreign air carriers with operations to, from, or within the United 
States comply with any applicable U.S. emergency amendments to air 
carrier security programs, foreign countries, as sovereign nations, 
generally cannot be compelled to implement specific aviation security 
standards or mutually accept other countries' security measures.\28\ 
International representatives have noted that national sovereignty 
concerns limit the influence the United States and its foreign partners 
can have in persuading any country to participate in international 
harmonization efforts. As we reported in 2007 and 2010, participation 
in ICAO is voluntary.\29\ Each nation must initiate its own involvement 
in harmonization, and the United States may have limited influence over 
its international partners.
---------------------------------------------------------------------------
    \28\ See 49 U.S.C.  44906; 49 CFR pt. 1546.
    \29\ GAO-07-660 and GAO-10-446.
---------------------------------------------------------------------------
    Countries view aviation security threats differently. As we 
reported in 2007 and 2010, some foreign governments do not share the 
United States government's position that terrorism is an immediate 
threat to the security of their aviation systems, and therefore may not 
view international aviation security as a priority.\30\ For example, 
TSA identified the primary threats to inbound air cargo as the 
introduction of an explosive device in cargo loaded on a passenger 
aircraft, and the hijacking of an all-cargo aircraft for its use as a 
weapon to inflict mass destruction.\31\ However, not all foreign 
governments agree that these are the primary threats to air cargo or 
believe that there should be a distinction between the threats to 
passenger air carriers and those to all-cargo carriers. According to a 
prominent industry association as well as foreign government 
representatives with whom we spoke, some countries view aviation 
security enhancement efforts differently because they have not been a 
target of previous aviation-based terrorist incidents, or for other 
reasons, such as overseeing a different airport infrastructure with 
fewer airports and less air traffic.
---------------------------------------------------------------------------
    \30\ GAO-07-660 and GAO-10-446.
    \31\ For the purposes of this statement, inbound air cargo refers 
to cargo transported by both U.S. and foreign air carriers from a 
foreign location to the United States.
---------------------------------------------------------------------------
    Resource availability affects security enhancement efforts. In 
contrast to more developed countries, many less developed countries do 
not have the infrastructure or financial or human resources necessary 
to enhance their aviation security programs. For example, according to 
DHS and TSA officials, such countries may find the cost of purchasing 
and implementing new aviation security enhancements, such as 
technology, to be prohibitive. Additionally, some countries 
implementing new policies, practices, and technologies may lack the 
human resources--for example, trained staff--to implement enhanced 
security measures and oversee new aviation security practices. Some 
foreign airports may also lack the infrastructure to support new 
screening technologies, which can take up a large amount of space. 
These limitations are more common in less developed countries, which 
may lack the fiscal and human resources necessary to implement and 
sustain enhanced aviation security measures. With regard to air cargo, 
TSA officials also cautioned that if TSA were to impose strict cargo 
screening standards on all inbound cargo, it is likely many nations 
would be unable to meet the standards in the near term. Imposing such 
screening standards in the near future could result in increased costs 
for international passenger travel and for imported goods, and possible 
reductions in passenger traffic and foreign imports. According to TSA 
officials, strict standards could also undermine TSA's ongoing 
cooperative efforts to develop commensurate security systems with 
international partners.
    To help address the resource deficit and build management capacity 
in other nations, the United States provides aviation security 
assistance--such as training and technical assistance--to other 
countries. TSA, for example, works in various ways with state and 
international organizations to provide aviation security assistance to 
foreign partners. In one such effort, TSA uses information from the 
agency's foreign airport assessments to identify a nation's aviation 
security training needs and provide support. In addition, TSA's 
Aviation Security Sustainable International Standards Team (ASSIST), 
comprised of security experts, conducts an assessment of a country's 
aviation security program at both the national and airport level and, 
based on the results, suggests action items in collaboration with the 
host nation. State also provides aviation security assistance to other 
countries, in coordination with TSA and foreign partners through its 
Anti-Terrorism Assistance (ATA) program. Through this program, State 
uses a needs assessments--a snapshot of a country's antiterrorism 
capability--to evaluate prospective program participants and provide 
needed training, equipment, and technology in support of aviation 
security, among other areas.\32\ State and TSA officials have 
acknowledged the need to develop joint coordination procedures and 
criteria to facilitate identification of global priorities and program 
recipients. We will further explore TSA and State efforts to develop 
mechanisms to facilitate interagency coordination on capacity building 
through our ongoing work.
---------------------------------------------------------------------------
    \32\ The needs assessment, performed by State personnel along with 
a team of interagency subject-matter experts, is conducted at several 
levels, including tactical capabilities (people and resources), 
operational management capabilities (overall management and ability), 
and strategic capabilities.
---------------------------------------------------------------------------
    Legal and cultural factors can also affect harmonization. Legal and 
cultural differences among nations may hamper DHS's efforts to 
harmonize aviation security standards. For example, some nations, 
including the United States, limit, or even prohibit the sharing of 
sensitive or classified information on aviation security procedures 
with other countries. Canada's Charter of Rights and Freedoms, which 
limits the data it can collect and share with other nations, 
demonstrates one such impediment to harmonization. According to TSA 
officials, the United States has established agreements to share 
sensitive and classified information with some countries; however, 
without such agreements, TSA is limited in its ability to share 
information with its foreign partners. Additionally, the European 
Commission reports that several European countries, by law, limit the 
exposure of persons to radiation other than for medical purposes, a 
potential barrier to acquiring some passenger screening technologies, 
such as AIT.\33\
---------------------------------------------------------------------------
    \33\ According to the European Commission, these countries are the 
Czech Republic, France, Germany, and Italy. GAO has not independently 
verified these potential legal impediments. Both TSA and the European 
Commission report that use of the two types of AIT units deployed will 
expose individuals to low doses of radiation. For example, the X-ray 
dose received from the backscatter system is equivalent to the 
radiation received in 2 minutes of airplane flight, while the energy 
projected by the millimeter wave system is 100,000 times less than a 
cell phone transmission.
---------------------------------------------------------------------------
    Cultural differences also serve as a challenge in achieving 
harmonization because aviation security standards and practices that 
are acceptable in one country may not be in another. For example, 
international aviation officials explained that the nature of aviation 
security oversight varies by country--some countries rely more on trust 
and established working relationships to facilitate security standard 
compliance than direct government enforcement. Another example of a 
cultural difference is the extent to which countries accept the images 
AIT units produce. AIT units produce a full-body image of a person 
during the screening process; to varying degrees, governments and 
citizens of some countries, including the United States, have expressed 
concern that these images raise privacy issues. TSA is working to 
address this issue by evaluating possible display options that would 
include a ``stick figure'' or ``cartoon-like'' form to provide enhanced 
privacy protection to the individual being screened while still 
allowing the unit operator or automated detection algorithms to detect 
possible threats. Other nations, such as the Netherlands, are also 
testing the effectiveness of this technology.
    Although DHS has made progress in its efforts to harmonize 
international aviation security standards and practices in key areas 
such as passenger and air cargo screening, officials we interviewed 
said that there remain areas in which security measures vary across 
nations and would benefit from harmonization efforts. For example, as 
we reported in 2007,\34\ the United States requires all passengers on 
international flights who transfer to connecting flights at United 
States airports to be rescreened prior to boarding their connecting 
flight.\35\ In comparison, according to EU and ICAO officials, the EU 
has implemented ``one-stop security,'' allowing passengers arriving 
from EU and select European airports to transfer to connecting flights 
without being rescreened. Officials and representatives told us that 
although there has been ongoing international discussion on how to more 
closely align security measures in these and other areas, additional 
dialogue is needed for countries to better understand each others' 
perspectives. According to the DHS officials and foreign 
representatives with whom we spoke, these and other issues that could 
benefit from harmonization efforts will continue to be explored through 
ongoing coordination with ICAO and through other multilateral and 
bilateral outreach efforts.
---------------------------------------------------------------------------
    \34\ GAO-07-729.
    \35\ For example, a passenger traveling from Frankfurt, Germany, to 
Chicago, Illinois, and changing planes in New York City, must be 
rescreened, along with the passenger's checked baggage, prior to 
boarding the connecting flight to Chicago. See 49 U.S.C.  44901(a), 
which requires that TSA provide for the screening of such passengers.
---------------------------------------------------------------------------
Challenges Related to TSA's Foreign Airport Assessment Program
    Our 2007 review of TSA's foreign airport assessment program 
identified challenges TSA experienced in assessing security at foreign 
airports against ICAO standards and recommended practices, including a 
lack of available inspector resources and host government concerns, 
both of which may affect the agency's ability to schedule and conduct 
assessments for some foreign airports.\36\ We reported that TSA 
deferred 30 percent of its scheduled foreign airport visits in 2005 due 
to the lack of available inspectors, among other reasons.\37\ TSA 
officials said that in such situations they sometimes used domestic 
inspectors to conduct scheduled foreign airport visits, but also stated 
that the use of domestic inspectors was undesirable because these 
inspectors lacked experience conducting assessments in the 
international environment.\38\ In September 2010, TSA officials told us 
that they continue to use domestic inspectors to assist in conducting 
foreign airport assessments and air carrier inspections--approximately 
50 domestic inspectors have been trained to augment the efforts of 
international inspectors. We also previously reported that 
representatives of some foreign governments consider TSA's foreign 
airport assessment program an infringement of their authority to 
regulate airports and air carriers within their borders. Consequently, 
foreign countries have withheld access to certain types of information 
or denied TSA access to areas within an airport, limiting the scope of 
TSA's assessments. We plan to further assess this issue, as well as 
other potential challenges, as part of our ongoing review of TSA's 
foreign airport assessment program, which we plan to issue in the fall 
of 2011.
---------------------------------------------------------------------------
    \36\ GAO-07-729.
    \37\ This included visits for both airport assessments and air 
carrier inspections. See GAO-07-729.
    \38\ Domestic inspectors are inspectors who typically conduct 
security inspections at U.S. airports.
---------------------------------------------------------------------------
    Mr. Chairman, this completes my prepared statement. I look forward 
to responding to any questions you or other members of the Committee 
may have at this time.

    Senator Dorgan. Mr. Lord, thank you very much, and thanks 
for the work that the Government Accountability Office 
routinely does.
    I'd like to ask the cooperation of the three witnesses if I 
might for a moment. We have a second panel of only one 
presenter and I would like to ask your cooperation if I might 
ask that presenter to come forward to the end of the table and 
make this presentation.
    It is Mr. Greg Principato, who is the President of the 
Airports Council International. If we could have Mr. 
Principato's testimony on the record, then when I call on 
members of the Committee we can ask questions of all of them. 
So thank you for your cooperation in allowing that to happen, 
but we do have some time restraints and I want to handle it 
that way.
    Mr. Principato, you are the President of the Airports 
Council International, and your full statement will be made a 
part of the record, and if you would be willing to summarize 
we'd appreciate that. You may proceed.

 STATEMENT OF GREGORY PRINCIPATO, PRESIDENT, AIRPORTS COUNCIL 
                  INTERNATIONAL--NORTH AMERICA

    Mr. Principato. Thank you very much, Senator Dorgan. Let me 
begin as well by adding my appreciation for a career well 
served and for all you've done for the country, for the Senate, 
for the aviation industry. As my colleagues here have said it, 
I'm honored to be part of your last hearing. So thank you very 
much.
    Mr. Chairman, members of the Subcommittee: On behalf of the 
members of Airport Council International--North America, thank 
you for allowing me to testify here this afternoon. It's 
important that industry and government work together to find 
solutions to secure our aviation system and passengers. Close 
coordination yields positive results. After discovering a bomb 
threat using liquid explosives in 2006, TSA coordinated closely 
with airports and airlines to ban liquids, aerosols, and gels. 
Airports were instrumental in reaching out to their communities 
to explain the new checkpoint procedures, which helped to 
mitigate confusion at airport security checkpoints.
    In the aftermath of the attempted attack on Christmas Day 
2009, TSA imposed new security requirements which required 
passengers boarding flights to the U.S. be subject to 
additional screening and enhanced searches of carry-on luggage. 
The new procedures caused significant wait times at security 
checkpoints and in many cases flights to the U.S. were delayed 
or canceled. Toronto Airport, for example, had no choice but to 
work with its airlines to cancel 25 percent of all of its U.S.-
bound flights due to the delays caused by the increased 
screening requirements.
    These new mandates were particularly cumbersome for 
European airports, which, unlike the U.S., are actually 
responsible for screening passengers and baggage. 
Unfortunately, while the Department of Homeland Security and 
TSA worked closely with the airlines on December 25, they did 
not coordinate with airports. So we pressed for a meeting with 
Secretary Napolitano, which she graciously gave us, where we 
offered to assist DHS in working with airports both 
domestically and internationally to develop sustainable 
security measures.
    Since then, DHS and TSA have begun to better coordinate 
with foreign governments and global industry stakeholders to 
strengthen aviation security standards. In addition, we 
routinely encourage TSA, Canada, and the European Union to 
develop mutually recognized standards for security screening 
technology. Having similar standards will allow passengers, 
baggage, and cargo to be screened once, which will enhance the 
efficiency and effectiveness of the security process.
    As a result of the Christmas Day bombing incident, TSA 
announced its plans to install advanced imaging technology 
(AIT), units to replace current metal detectors. Although 
supportive, we stressed to TSA the need to consider the 
throughput of screening with AIT versus metal detectors and the 
space available at airport checkpoints.
    In response to these concerns, TSA has begun installing AIT 
at airports that can readily accommodate the machines. We 
remain concerned that future AIT installations will pose 
significant challenges at airports, where major facility 
modifications may be necessary to accommodate the equipment.
    Along with installing AIT, TSA has implemented enhanced 
patdown procedures. In advance of the implementation of these 
patdowns, we strongly urged TSA to conduct a public awareness 
campaign to educate travelers on the rationale and necessity 
for the new procedures. Unfortunately, TSA launched its public 
awareness campaign only after the public backlash.
    It's critically important for airports to receive timely 
and actionable intelligence information from DHS and TSA. As 
the Christmas Day bombing incident showed, this is not always 
the case. Yet receiving this intelligence allows airports to 
make risk-informed decisions to help mitigate threats by 
effectively using their limited resources to ensure the 
security of their facilities and passengers.
    Finally, TSA's use of security directors as a way to issue 
security regulations for airports has become increasingly 
challenging. We understand TSA must be able to issue security 
directives in response to intelligence involving in imminent 
threat, as with the liquid plot 4 years ago. However, TSA has 
used security directives to push out costly regulations that do 
not meet that threshold, with little or no industry 
coordination or input.
    We're pleased, however, with TSA's willingness to examine 
some outdated security initiatives through the In-Depth 
Security Review Task Force, an initiative by ACI North America 
which has allowed TSA and airport industry representatives to 
have an open discussion about sustainable security measures. 
And we commend TSA for this coordination with the airport 
industry.
    ACI North America and its member airports stand ready to 
partner with TSA to help maintain a secure aviation system. You 
might be interested to know that yesterday representatives from 
key commercial aviation stakeholders got together in our 
offices to discuss all this and the best ways to move forward, 
and we're prepared to work with you, your colleagues in 
Congress, with DHS and TSA and others, on continuing 
improvements to the system.
    We remain optimistic that DHS and TSA will more closely 
coordinate with the airport industry and with the international 
community on future aviation security measures. I look forward 
to taking your questions.
    [The prepared statement of Mr. Principato follows:]

         Prepared Statement of Gregory Principato, President, 
             Airports Council International--North America
    Chairman Dorgan, Ranking Member DeMint, and members of the 
Subcommittee, thank you for the invitation to appear before you today 
to offer the views of airport operators on airport security and 
improvements to enhance the current system. As the President of 
Airports Council International--North America (ACI-NA), I am testifying 
today on behalf of the local, regional, and state governing bodies that 
own and operate commercial service airports in the United States and 
Canada. ACI-NA member airports enplane more than 95 percent of the 
domestic and virtually all the international airline passenger and 
cargo traffic in North America. Nearly 400 aviation-related businesses 
are also members of ACI-NA.
    Mr. Chairman, we commend you for holding this important hearing. 
Each day, airports work to ensure the safety and security of our 
passengers, employees and facilities. To this end, airports partner 
with airlines, tenants, the Transportation Security Administration 
(TSA), Customs and Border Protection and federal, state, and local law 
enforcement to maintain and develop a comprehensive, layered security 
system that can quickly adapt and respond to new threats.
Christmas Day Bombing Attempt
    In the immediate aftermath of the attempted attack on Christmas Day 
2009, TSA imposed additional security requirements on domestic and 
international airlines with flights to the United States. Some of the 
measures included restrictions placed upon passenger access to carry-on 
and service items as well as limitations on the ability to get out of 
their seats during the last hour of flight. In addition, airlines were 
required to turn off the moving map displays, coincidentally the most-
watched channel on in-flight entertainment systems. The measures also 
called for passengers boarding flights to the U.S. to be subjected to 
secondary screening at boarding gates and searches of their carry-on 
items.
    On the day of the event, many airports in the U.S.--including 
Detroit--learned of the attempted terrorist attack from the media. As 
the new measures were being implemented, many flights were delayed and 
passengers endured significant wait times at security checkpoints, 
especially in Canada. Although TSA coordinated closely with the 
airlines in the immediate aftermath of the attempted bombing, it did 
not coordinate as effectively with airports and the impact of the 
enhanced passenger screening requirements--particularly at Canadian 
airports--was significant. In order to reduce wait times at security 
checkpoints, which had exceeded 2 hours, Toronto Pearson International 
Airport had no choice but to work with airlines to cancel 25 percent of 
their flights to the United States. As a result, ACI-NA worked with its 
counterparts in Europe and Canada to share information and provide 
updates on the evolving security measures.
    It is important to understand that the TSA mandates requiring 
airlines to provide enhanced security and screening of passengers on 
flights departing international airports for the U.S. could not be 
implemented absent coordination with the airport operators and foreign 
governments. European airports are largely responsible for screening 
passengers and baggage, paying for new screening technology and, after 
ensuring that the requirements could be conducted in accordance with 
local regulations, had to hire and deploy security staff to gates to 
conduct enhanced passenger screening on flights departing to the U.S. 
Absent the necessary funding and manpower at many airports to perform 
the new requirements and in an attempt to develop sustainable measures 
that provided an adequate level of security while minimizing passenger 
and flight delays, TSA worked closely with airlines, and ultimately 
dispatched teams of senior executives to meet with foreign governments 
and airports. As a result of the coordination, TSA modified the 
measures in order to use data to target certain passengers for 
additional screening, thus enhancing security while minimizing the 
burden on airports.
    Although Department of Homeland Security (DHS) Secretary Janet 
Napolitano had several meetings with airline representatives and their 
associations after the Christmas Day bombing attempt, there was little 
coordination or information sharing between DHS and the airport 
industry. To ensure DHS understood the important role airports 
throughout the world play in aviation security, ACI-NA pressed for a 
meeting with the Secretary. ACI-NA offered to assist the Secretary in 
identifying sustainable aviation security measures through the 
International Civil Aviation Organization (ICAO), given that Airports 
Council International (ACI World) serves as the officially accredited 
airport representative to ICAO. Since that time, DHS and TSA have 
worked extensively with foreign governments and through ICAO to 
strengthen aviation security standards and encourage the use of the 
latest screening technology. As a result of these efforts, ICAO 
recently issued a Declaration on Aviation Security which recognizes the 
need to strengthen aviation security world-wide through the uniform 
application of aviation security standards and available screening 
technologies while putting a priority on the research and development 
of explosive detection technology.
    In furtherance of our objective to coordinate on aviation security, 
ACI-NA invited TSA Administrator John Pistole, Daniel Calleja, Director 
of Air Transport for the European Commission and Kevin McGarr, 
President and CEO of the Canadian Air Transport Security Authority, to 
a joint board of directors meeting of the North American and European 
regions of Airports Council International (ACI-NA and ACI Europe) this 
past September. In addition to discussing the need for coordination 
between governments and industry to develop sustainable aviation 
security measures, the boards expressed concern that the EU has 
unrealistic deadlines for loosening the restrictions on liquids, gels 
and aerosols, which cannot be met and are out of sync with similar 
initiatives in the U.S.
    To continue our effort to educate our member airports on 
international aviation security measures, I am leading a delegation of 
airport directors and security staff on a mission to Israel this month 
which will allow participants to hear presentations from Ben-Gurion 
Airport security professionals and to learn first-hand the procedures 
the Israelis use to keep their passengers and facilities secure. In 
addition to encouraging all of our member airports to participate in 
our 4th annual mission, we also invited senior TSA representatives to 
join us.
Advanced Imaging Technology
    In the wake of the attempted terrorist attack on Northwest Airlines 
Flight 253 on Christmas Day, TSA announced its plan to install advanced 
imaging technology (AIT) at security checkpoints to replace current 
walk-though metal detection devices. AIT units had been tested at 
several airports in the United States over the last several years; and 
unlike the metal detection devices AIT units can detect prohibited 
items with little or no metallic content.
    ACI-NA generally supports the TSA's continued evaluation, testing 
and deployment of this technology. In doing so, however, we identified 
three key considerations:

        1. Throughput--the deployment of AIT technology at airports 
        should not result in increased wait times;

        2. Space--in accordance with the old adage ``when you have seen 
        one airport, you have seen one airport,'' AIT technology may 
        not fit at every checkpoint absent significant and costly 
        facility modifications, the cost of which should be borne by 
        TSA;

        3. Privacy--the TSA continues to adhere to the strict privacy 
        principles it put in place when the technology was originally 
        pilot tested:

    <bullet> Images cannot be stored, downloaded or copied.

    <bullet> Operators are stationed in separate rooms with no view of 
            the individual being screened.

    <bullet> Passengers are given the option of going through a walk 
            through metal detector and being subjected to a patdown 
            inspection.

    Additionally, ACI-NA has encouraged TSA to pursue enhancements to 
AIT technology that will increase effectiveness, efficiency and 
passenger throughput while continuing to provide passengers the option 
of alternate screening methods. TSA's proposed solution is Automated 
Target Recognition (ATR), an algorithm that can be loaded on AIT units 
and readily identifies items of concern for TSOs by highlighting 
certain areas on a stick figure image for further inspection. Since ATR 
produces only a stick figure image, it not only addresses concerns 
about privacy, but it also negates the need for the image operators to 
be located in separate, isolated viewing rooms, thereby reducing the 
space needed at airport security checkpoints. Even with these 
advancements, airports continue to have concerns about the larger 
footprint of this technology, which takes more space than walk-through 
metal detectors and could necessitate costly facility modifications in 
order to accommodate the units. Of the airports that responded to a 
survey conducted by ACI-NA, about half reported having limited 
checkpoint space. ACI-NA raised these issues at a meeting with DHS 
Secretary Napolitano in February.
    In response to the concerns raised by airports, Secretary 
Napolitano asked TSA to constitute a working group comprised of airport 
and TSA representatives to develop a coordinated plan for AIT 
deployment that considers passenger throughput and the costs associated 
with facility modifications. Although TSA, at a working group meeting, 
confirmed that it plans to deploy the first 500 AIT units only to 
airports that have available checkpoint space and do not need facility 
modifications, the costs associated with facility modifications is 
something that should be borne by TSA and is especially challenging for 
smaller airports. TSA has now deployed over 385 units to more than 68 
airports and is on track to reach its goal of deploying a total of 500 
AIT units in the remainder of 2010.
    So far, the working group has facilitated a collaborative approach 
that will allow TSA and airports to resolve the identified challenges 
and result in coordinated deployment of AIT at checkpoint locations 
where the technology can be readily accommodated. Given the lack of 
available funding necessary for facility modifications at checkpoint 
locations where space is limited, airports remain optimistic that the 
working group process will result in a cooperatively developed 
deployment plan that identifies airport checkpoint locations where AIT 
can be readily deployed. ACI-NA continues to work with TSA to ensure it 
coordinates all security technology deployments with airports, as TSA 
plans to have a total of 1,000 AIT units installed at airports across 
the country by the end of 2011.
    TSA recently invited ACI-NA to participate in an International 
Policy Summit on AIT to better educate representatives from other 
countries, answer questions and discuss the security benefits of the 
technology. The forum also provided an opportunity for foreign 
government representatives to present on their experiences in using the 
technology, including the use of ATR, which is installed and 
operational on all AIT units at Schiphol Airport in Amsterdam.
Enhanced Pat Down Procedures
    Along with installing AIT units, TSA has also implemented enhanced 
patdown procedures. According to TSA, only individuals who trigger an 
alarm during screening, or those who opt out of screening by AIT would 
be subject to these new patdown procedures. In advance of the 
implementation of these enhanced patdowns, ACI-NA strongly encouraged 
TSA to conduct a public awareness campaign to educate travelers on the 
rational and necessity for the new procedures. Unfortunately, the 
public awareness campaign was only launched after significant public 
backlash over the enhanced patdown procedures.
    Concerns of passengers must be taken seriously, and we need to find 
the delicate balance between providing the appropriate level of 
security while ensuring efficient checkpoint screening and airport 
operations. This continues to be a substantial challenge. A system that 
achieves a balance between optimal security and customer service is 
achievable, provided that government and industry work together. ACI-NA 
stands ready to work with DHS, TSA and Congress to reach this goal and 
hosted a meeting on December 1 with the heads of airport and airline 
associations to discuss the principles of a future aviation security 
system that achieves that delicate balance.
Technology
    While there have been significant advances in the research and 
development of cutting edge passenger and baggage screening 
technologies, a cohesive screening technology research and development 
plan that leverages government and industry expertise has yet to be 
formulated. Similarly, adequate funding and prioritization is essential 
to ensure that new technology is deployed to airports where outdated 
technology is in need of replacement. With the significant focus on 
screening passengers and baggage, the development of next generation 
screening technology, as well as that for screening air cargo, has 
suffered and should also be a priority. The research and development of 
next generation security technologies could be further advanced through 
the introduction of government-administered grant programs that provide 
incentives to manufacturers.
    We routinely encourage TSA and the European Union to 
collaboratively develop mutually recognized standards for security 
screening technology. The identification of mutually recognized 
standards will allow manufacturers to develop screening technologies 
that can be used in different countries while stimulating competition 
between manufacturers, and resulting in technology enhancements and 
lower costs. Further, the deployment of screening technology developed 
in accordance with the standards will allow passengers, baggage and 
cargo to be screened once, thus paving the way for true harmonization, 
something that is essential to further enhance the efficiency and 
effectiveness of the security process, especially as we prepare for the 
anticipated increase in the number of passengers in the coming years.
    One area that technology development and inter-governmental 
coordination could readily address is the current process of re-
screening connecting baggage from Canada at U.S. gateway airports. This 
requirement is redundant and unnecessarily drains limited TSA and 
industry resources as the checked baggage has been inspected by CBP 
officials, is screened prior to departing Canada, and has flown at 
least one segment upon arrival in the U.S. TSA should work with the 
Canadian authorities to develop mutually agreeable checked-baggage 
screening procedures or technologies at Canadian airports, which would 
eliminate the need for re-screening at U.S. locations. This would not 
only free up limited TSA resources but also reduce the operational 
burden on airports, decrease flight delays and minimize misconnecting 
checked baggage.
    Although biometric employee identification and access control 
offers some potential security benefits, implementation is very costly 
and should not be the result of an unfunded federal mandate. Given the 
significant cost to outfit an airport with biometrics, and in 
accordance with sound risk-management, an investment of this magnitude 
in this type of evolving technology, something that would further 
deplete limited resources, must be weighed against the security 
benefits of other systems. While a few airports have begun to test and 
install biometrics in accordance with existing TSA technology 
standards, a federally-funded pilot program is necessary to evaluate 
the capabilities of biometric employee identification and access 
control. Subsequent to a pilot test, results must be scrutinized to 
determine which systems should be included on a government-developed 
qualified products list. In consideration of the limited availability 
of resources, funding must be provided to airports for the installation 
of biometric employee identification and access control systems.
Intelligence Information and Sharing
    The importance of timely and actionable intelligence information 
cannot be understated and is essential for TSA and airports to 
appropriately adjust the aviation security posture. While information 
sharing has expanded, more can and should be done. Of concern to ACI-NA 
is the timeliness of actionable intelligence information which is used 
by airports to immediately develop countermeasures to respond to the 
identified threat. Proactive security professionals realize the 
importance of preparedness; information outlining threats to airports 
can be used to help reduce identified risks.
    The government should undertake an effort to conduct a risk-based 
analysis of all threats. Once this has been completed, each should be 
prioritized, based on the latest intelligence information and the 
relative risk, taking into consideration the effectiveness of measures 
already in place. The development of a threat matrix will permit 
government officials and airport security professionals to mutually 
identify areas that necessitate additional security measures and 
importantly, provide a methodology for the most effective allocation of 
limited resources.
    An example of the critical importance of intelligence information 
is the recent attempted bombing of cargo airplanes. This plot was 
disrupted because TSA readily conveyed actionable intelligence 
information to the all-cargo airlines.
Sustainable Aviation Security Measures
    One of the key challenges for airports is TSA's use of Security 
Directives to promulgate regulations. In most cases, procedures 
mandated through Security Directive must be implemented immediately, 
with little consideration for the fact that each airport is different 
and boiler plate measures may not work, given facility constraints and 
more importantly, limited resources. Although TSA has changed its 
posture somewhat, to allow the opportunity for a coordinated review of 
some Security Directives prior to issuance, others have been issued 
recently absent industry input.
    While airports agree that TSA needs the ability to avoid the formal 
rulemaking process and issue Security Directives, that regulatory 
option should be strictly reserved for situations involving an 
immediate threat, as was stipulated by Congress and in TSA security 
regulations. Rather than routinely regulating through a Security 
Directive, TSA should use the Notice of Proposed Rulemaking (NPRM), a 
proposed change to airport security programs or a similar coordinated 
rulemaking process, which affords industry an opportunity to identify 
other procedures that provide the same level of security while 
minimizing unintended costs and operational impacts. Although TSA 
ultimately issued Security Directives in response to the liquids 
explosives plot in August 2006, it was only after extensive 
coordination and collaboration with industry to review the intelligence 
information that sustainable measures were developed. By working 
together, government and industry transformed the aviation security 
system overnight maintaining security but also taking into account the 
needs of the traveling public.
    Although there has been much discussion about the need to conduct 
an ``Orange Level Review,'' to evaluate the heightened security 
requirements that the aviation industry had to put in place and comply 
with since August 2006, some in government and industry are loathe to 
rescind measures--even when doing so means that limited resources can 
be freed up to bolster other areas--out of concern that it might be 
perceived as weakening security. In reality, many aviation security 
measures are out-of-date, contradictory and requiring the application 
of staff and funding to areas that have long since been addressed by 
technology or other security layers.
    As a proactive measure and in consideration of the significant 
security costs borne by airports, ACI-NA constituted an In-Depth 
Security Review Task Force, comprised of staff and several airport 
representatives, to conduct a thorough review of current security 
measures. In conducting the review, ACI-NA evaluated all existing 
security requirements to identify those which are duplicative, stale or 
no longer make sense given the evolution of the threat and/or 
implementation of countermeasures. In order to ensure a coordinated 
approach, ACI-NA involved American Association of Airport Executives 
and TSA representatives in the process and is working to ensure the 
near-term modification of existing requirements to provide additional 
flexibility for airports through the development of sustainable 
security measures. Recently, as a result of this process, TSA 
eliminated a long-standing requirement for employment history 
verifications, something that was no longer necessary when airports 
began conducting fingerprint-based criminal history records checks on 
all employees in 2006.
Conclusion
    Although there are aspects of the current aviation security system 
that are effective, there are others which need to evolve to keep pace 
with the projected increase in the number of passengers and volume of 
cargo in the United States and abroad. Only through an effective 
partnership where government coordinates with industry to apply 
appropriate security measures can we ensure the long-term 
sustainability of the aviation system.
    Through an effort in which government works to prioritize threats, 
adjusts the security posture based upon credible intelligence 
information and allocates resources accordingly, while at the same 
time, collaborating with the airport industry to mutually address 
security issues, we can better achieve our mutual goal of enhancing 
security while minimizing unnecessary operational impacts.
    Thank you for the opportunity to appear before you today.

    Senator Dorgan. Mr. Principato, thank you very much for 
your perspective on these issues.
    I have a good number of questions, but I think I will defer 
questions until others have been able to ask their questions. 
So I'll call on Senator Rockefeller.
    The Chairman. I yield to the Senator from New Jersey.
    Senator Dorgan. All right. Senator Lautenberg, why don't 
you proceed.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I'll just take a couple minutes, Mr. 
Chairman, because we're called back to something else. I want 
to thank the witnesses. I feel that we've got a very good team 
at Homeland Security and TSA and I thank them for their work.
    But I particularly did not want to miss a moment to say 
that we're going to miss you, Mr. Chairman. We've served 
together for a great number of years, about 16. I left for a 
couple of years, and I'm hoping you'll have a chance to think 
about that and maybe we'll see you again.
    But it has been an honor and a privilege to work with Byron 
Dorgan. Thoughtful, articulate, loved his job, and he gave it 
his best. You will be missed and we wish you and your family 
all good things in the future. Don't be afraid to give us 
advice. You haven't been until now, so why should you stop at 
this point.
    Thank you very much, thank the witnesses. I'll put my 
questions to them in writing.
    Senator Dorgan. Senator Lautenberg, thank you very much. 
You're all too generous.
    Let me call on Senator Johanns, after which I'll call on 
Senator Rockefeller.
    Senator Johanns. Thank you very much, Mr. Chairman.
    Mr. Principato, let me start with you. I offered the 
observation in my opening statement, as you know, that if 
passengers can be forewarned about what's coming, if possible, 
it just seems to work better. Give us your perspective on that? 
As we think about the next generation of security and what 
might be required, what's the best way to roll these things 
out, if you will?
    Mr. Principato. Senator Johanns, I think the point you 
made, it just can't be overstated. It's critical. As I 
mentioned, in 2006 we had the liquid plot. Many of us in this 
room were on those conference calls late that night, and no one 
knew anything. It was all going to be rolled out the next 
morning. I think the government, the airlines, and the airports 
just did a magnificent job getting together, with absolutely no 
lead time, to educate the public on what was going on.
    There were people who went to bed that night figuring they 
were going to show up at the airport an hour and a half before 
their flight, everything would be fine, they'd be off to see 
their family, and they got there and it was much different.
    But because of the efforts of all three players in this, 
the government, the airports, and the airlines, when passengers 
arrived at the airport there were folks there at the airport 
giving them pieces of paper, telling them what was going on, 
explaining why. There was a lot of excellent work done with the 
press overnight to make sure that when people woke up the story 
was out.
    Really, it's worth looking back on that particular case and 
seeing how in a situation where you had no lead time at all it 
really worked very well.
    Given that, it's a little bit frustrating that the patdowns 
and so forth were rolled out without that kind of effort. I 
know TSA Administrator John Pistole, for whom I have a great 
deal of regard, by the way--I think he's going to do a terrific 
job there and he is--has already indicated that he wished he 
could have this one back.
    But I think passengers want information, and whether 
they're delayed on the tarmac, whether they're in the security 
line, or whatever it is, they want information and they want to 
know that you've got their best interests at heart. I think if 
we can do that, all working together, that that's really the 
model for the way forward.
    Senator Johanns. Great. I appreciate those thoughts.
    I don't know which witness would be best equipped, but I 
would like just a little education here. In my foreign travels, 
my observation has been that, for example, if you fly from, 
let's say, a Third World country and you fly from the interior 
of that country, the security is quite honestly kind of so-so. 
But it seems like in foreign operations they have kind of a hub 
system, too. Where you fly into a more major airport city, 
whatever it is, security really ramps up at that point. It 
looks more like U.S. security. And then you come over the 
ocean, wherever you're coming from.
    Is that a correct observation? Is that what we're dealing 
with? And if that is a correct observation, what are the key 
elements in terms of bringing security to that system, if you 
will?
    Mr. Heyman. Maybe we'll split the question. I'll take the 
first part.
    So the observation is probably--is possibly correct. The 
difference that you may be observing is that 250 or so 
countries or places around the world represent a last point of 
departure, where you're coming directly from another country to 
the United States. At those last points of departure we have 
programs through our security programs and our security 
directives to ensure that the level and standards are adhered 
to that are critical for our own domestic interests.
    Those are regulated through the 9/11 Act and are overseen 
by my colleague here in terms of auditing them and ensuring 
that they maintain those standards. So you will see--you may 
see that type of difference. Part of the reason that we've just 
gone through this last year's efforts to increase standards 
globally is so that we can actually raise the bar across all 
points of departure.
    Ms. Reeder. To provide a little background, the program 
that I manage now actually began with the TWA flight back in 
1985 where the Navy diver was taken off and assassinated by the 
terrorists. That was the genesis of the foreign airport 
assessment program, which has gained momentum over the years.
    The challenge we face is that ICAO Annex 17 focuses on 
international airports. Countries are encouraged to apply those 
same standards to their internal airports, but they're not 
obligated to do so. So if you're taking off from a small 
airport, say in Poland, and then you go to Warsaw, that's all 
within the EU and, fortunately, that is subject to pretty 
strict standards.
    But the same situation in, say, Kenya doesn't apply. So you 
take off from a small airport in Kenya and you go to Nairobi 
and you depart from--well, Nairobi's not a good example because 
we don't have direct flights. But those airports that have 
direct service to the United States, as Mr. Heyman explained, 
they are monitored by my inspectors. We go there at least once 
a year to look at the air carrier inspection activities, and we 
go and do an airport assessment at least every 1 to 3 years to 
ensure that they are fully complying with the standards. When 
they're not fully complying, we take actions with the 
government or even at the airport to provide additional 
training.
    Senator Johanns. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Johanns, thank you very much.
    Senator Rockefeller.
    The Chairman. First just a quick agreement with Senator 
Johanns on the public's adjusting to more security. There 
really isn't any choice, and it has been--the patdowns, which 
actually only affect about 3 percent of the people who go onto 
airplanes, and they have to fail another test to get that--you 
know, it's sensationalized. It makes everybody nervous. In fact 
it is necessary, and others have learned how to live with this 
and I think we can, too. So I really agree with you, and I 
think TSA is doing a terrific job at it.
    In fact, on most trips I'll find a TSA person, particularly 
in rural areas, where they're dealing with a family that 
doesn't speak the English language all that well, but they 
handle them very nicely. What I routinely do is just sort of 
find out the supervisor of that TSA person and I write them a 
letter saying what a good job they did. I mean, I think they're 
doing a great job and I think the adjustment is part of the 
responsibility of the media and most importantly the American 
people themselves to face reality.
    I was very interested in what you said, Mr. Principato, 
about Canada and 25 percent of their flights being canceled. 
That raises a question that really affects all of you. It would 
be--not knowing what their security procedures are, I would 
assume that they'd be pretty rigorous, and then I would 
potentially falsely go on to assume that once they took off 
from Canada and landed in the United States and were then 
departing from that airport to some other destination that they 
would be allowed to go through our security system without 
special attention because they'd been through the Canadian one, 
because I would assume that the Canadian one had been good.
    But what you say is really stunning, that they've canceled 
25 percent to this country because of long lines of waiting, 
which doesn't make sense to me, because I only travel from the 
busiest airports in the country and they don't take that much 
time.
    Several questions. One is, do we have those kind of 
arrangements, to all of you, with other countries, that if they 
do have good security that they can not get a pass, but 
whatever the proper word is, within America as they change to 
another destination? That's number one.
    Number two: The very fine line--and you've talked about it, 
Ms. Reeder, and also you, Mr. Heyman--the line on a Third World 
country where some say, OK, the rural airport's not so good, 
but the main airport is good, that's very tricky. And it is 
hard to get a Third World country to upgrade. It's expensive. 
They don't have that. They don't have the experience. They 
don't have the mentality and the resources that we do in the 
West.
    So how do you judge in your audits, Ms. Reeder, which you 
do of these countries, how much they need to do to be 
satisfactory in order for us to trust them? How do you make 
those judgments?
    And then the Canada question, too. But you go ahead, Ms. 
Reeder.
    Ms. Reeder. Yes, sir. In fact, going to the Canada question 
first, there are I think 13 now airports around the world that 
are preclearance airports. There are eight in Canada, there are 
four in islands in the Caribbean and the Atlantic, and then 
there's one in Ireland, soon to be two. At these preclearance 
facilities, there are Customs and Border Protection officers 
who do the customs, the immigration, and the agricultural 
screening of all the passengers.
    We've entered into agreements with those countries wherein 
they conduct screening that is equivalent to what is done in 
the United States. So they use ETDs on the passengers the same 
way we do. They do patdowns the same way we do. They do 
everything, perhaps not identically, but certainly very 
comparable to what is done in the United States at U.S. 
airports.
    This was a very complicated legal matter that--it took us 
several years to go through the development of the standard 
operating procedures to ensure that the alignment was there and 
that the passengers were all being screened physically upon 
departure, the same way that they would be screened at the 
United States. As a result, upon arrival those passengers do 
not have to go back through--they don't enter the Federal 
Inspection Station, the FIS. They don't have to go back through 
TSA screening because we've already verified, and we regularly 
inspect them to ensure that they are complying with TSA SOPs, 
not with their own host government SOPs.
    There are 24 airports in Canada that provide service to the 
United States. Eight of those are preclearance. The other 16 
are not preclearance and they comply with Transport Canada's 
requirements, not with TSA's requirements. So persons that 
depart from those other 16 airports----
    The Chairman. Could you explain that difference to me, 
because this is actually very interesting, because if Canada is 
having these problems----
    Ms. Reeder. Yes, sir. And In fact the airport that Mr. 
Principato referred to, Toronto, is a preclearance airport. So 
it may have been that there were issues with them understanding 
the complexities that we had been working on. They are not 
always the very first one in the line of SOPs that get 
generated. So that may be what led to it, and I'll let him 
explain more about that particular instance.
    But the agreements that we have reached with the different 
countries, with Ireland, Aruba, the Bahamas, Bermuda, and with 
Canada are such that CBP has--their roles and responsibilities 
are fulfilled at those forward locations, rather than being 
fulfilled at the U.S. locations. Then we ensure that the 
passengers themselves and their accessible property are 
screened exactly the same way that they would be here.
    Now, the other departures--for example, there are ten 
islands in the Bahamas that have service to the United States. 
Those measures are not the same as what's done in Freeport and 
Nassau. The 16 airports in Canada, it's not as rigorous a 
screening as what we require from those preclearance airports, 
because we do require a certain percentage of passengers that 
get randomly selectee screened, the ETD usage, et cetera. So 
that's where the difference lies from the passengers experience 
perspective.
    There are no other countries whose measures have been 
deemed to be identical, because we have to comply with ATSA. 
The Aviation and Transportation Security Act requires that very 
specific things be done by TSA for all flights that depart from 
the United States, whether it's an internal domestic flight or 
it's an outbound flight. ATSA has very specific requirements, 
and that's where we get into the challenges with baggage that 
arrives from Canada and from the other preclearance locations, 
because that baggage is not being screened using the same kind 
of equipment that we require for screening here in the United 
States. So we continue to have those discussions.
    Now, as to the Third World countries----
    The Chairman. My time is out and we'll continue in the next 
round. There aren't too many of us up here.
    Senator Dorgan. You can continue.
    The Chairman. OK, you go ahead.
    Ms. Reeder. As to the Third World countries, as I 
mentioned, I have a cadre of 60, 65 inspectors--I have turnover 
at any given time--who are very skilled and very--they have a 
lot of knowledge and expertise.
    The Chairman. And they are doing the audits around the 
world?
    Ms. Reeder. They are the ones who are going to these 
foreign airports and looking at them. They will look at an 
airport that's the size of this room, for example, and they 
will look at are the doors locked? Yes, the doors are locked. 
They don't have swipe codes, but there are only two keys. OK, 
so it's not as arduous perhaps as DFW, but there are a limited 
number of doors, there are a limited number of keys, and they 
have good key control. So they determine that access control 
for that facility is strong.
    They may not have a fence, but they have a lake full of 
crocodiles. There are different ways that they ensure that 
there is access control. So it's not that you have to have a 
ten-foot wall with triple concertina wire at the top. There are 
different ways of accomplishing this.
    So we ensure that the inspectors are familiar with what are 
best practices, what are ways that can meet these requirements 
without having to have all the bells and whistles that we may 
have at a U.S. airport.
    Mr. Principato. If I could just--I know that--I guess we'll 
pursue some of this later, but on the Canadian issue just a 
little bit of quick perspective. And if you'd like, Senator 
Rockefeller, I'd be delighted to bring in the airport director 
from Toronto and other airports the next time they're in town, 
or even fly them down, to give you further perspective on this.
    Toronto, to use the example I used in the testimony, has 
more departures to U.S. cities than all but about 34 or 35 U.S. 
airports have to U.S. cities. There are a couple hundred 
departures each day. Even the busiest European gateways don't 
have that kind of traffic. So all the extra requirements are 
sort of multiplied in a situation like that.
    They had some, I guess they would call it, constitutional 
questions with taking people whose passports had been stamped 
in one of those 14 countries that DHS had identified and 
treating them differently, so they had to treat everybody the 
same. They ended up just banning carry-ons because they 
couldn't screen everything at the gate and they had to screen 
all carry-ons by opening them up. There's a lot of things that 
add up very quickly when you have that many departures.
    I want to give TSA some credit here. We worked very closely 
with TSA and with the folks in Toronto and some of the other 
Canadian airports to help alleviate some of this and find some 
solutions to it.
    But from the get-go I think when these requirements were 
first put in, there was a sense that all foreign traffic is the 
same, and it really isn't. The airports in Canada have so many 
more departures, especially Toronto, Montreal, Calgary and 
Vancouver. So it just sort of multiplied, multiplied out.
    The Chairman. Thank you.
    Senator Dorgan. Let me ask a couple of questions. The 
question I think that was asked earlier about the hub and spoke 
system in other countries or other continents, for that matter, 
that hub and spoke system is very much like ours, a 
circumstance where I assume terrorists would look for the 
weakest link to enter the system, because once into the system 
you're not going to be screened and rescreened, generally 
speaking.
    So what, for example, in Africa does the hub and spoke 
system look like? Am I right that we generally would fear that 
the terrorists would try to find the weakest link in that hub 
and spoke system in order to get into the system? And how are 
we responding to that?
    Ms. Reeder. Yes, sir. There are a very limited number of 
airports in Africa that provide direct service to the United 
States. But from every airport except those preclearance 
airports that I mentioned previously, at every airport everyone 
has to be rescreened. The passengers are rescreened, their 
accessible property is rescreened, and their checked baggage is 
rescreened. So, it's not as though if a person gets on an 
aircraft in Uganda and flies to Dakar, Senegal, that the Uganda 
threat is what we're concerned about as much as ensuring that 
Dakar is as strong as possible, which is why TSA focuses the 
majority of our efforts on those last points of departure or 
from those places where U.S. carriers depart.
    Now, places like Yemen and Pakistan, there are other areas 
where we focus attention as well because we want to ensure 
that, because there are so many flights that are coming from 
those locations or because there is an incident that has 
occurred, we want to ensure that at the very beginning that 
security is being implemented. So we will do that at the 
direction of the Secretary.
    Senator Dorgan. If we were holding this hearing at the exit 
airport for the Christmas bomber, what kind of security would 
we find at that airport at this moment?
    Ms. Reeder. Actually, he departed from Amsterdam direct to 
the United States. At that time Amsterdam did have whole-body 
imagers. They were not in the terminal that had the direct 
flights to the U.S. They have since placed AIT at all of the 
departure points for the U.S.
    But the security in place at Amsterdam, I can provide to 
you an SSI briefing on exactly what the posture is. We had a 
team there very recently. But that would not be an area of 
concern for me.
    Senator Dorgan. You mentioned a number of--a universe of 
300 airports, and then you also mentioned a universe of, what, 
60 or 65 inspectors, 65, 60 inspectors?
    Ms. Reeder. Yes, sir.
    Senator Dorgan. Go over again what those 300 airports 
represent?
    Ms. Reeder. Those 300 airports, there are about 270 of them 
that have direct service to the United States. Another 30 or so 
have all-cargo service to the United States, but no passenger 
service to the United States. Recognizing that we do have 
limited resources, we've gone through and done a very 
comprehensive evaluation of the threat, how much terrorist 
activity has been documented, how many terrorist screening 
database matches go through those airports, et cetera.
    We look at historical vulnerabilities as a result of 
assessments we conduct. Then we look at the size and the number 
of the aircraft that depart from those locations. So if we're 
looking at an airport that has two flights of a 19-seater a 
week to the United States and there has never been a TSDB match 
coming from that location, that's not real high on the list. A 
place that has two 777s with three TSDB matches per thousand 
passengers, that's very high on the list.
    So those are the ways that we look at where we should send 
people and ensure that we get to all of those locations in a 
reasonable amount of time to ensure that the security posture 
at those locations continues to meet the standards that we've 
identified.
    Senator Dorgan. Now, the other issue--and, Mr. Principato, 
perhaps you can respond to this--is you represent airports in 
the United States, correct?
    Mr. Principato. Yes.
    Senator Dorgan. We understand that we have standards here 
that we expect to be implemented across the country in a 
similar fashion. It is also the case, with respect to aviation 
safety or environmental standards or any number of things that 
you can have whatever standards you want on paper, in writing; 
the question is how are they implemented and how are they 
enforced.
    Can you give me your assessment, based on the meetings that 
you have held with international airports and partners abroad, 
what's the notion of the enforcement of standards as you see 
it? What should we believe exists out there with respect to the 
enforcement of the standards?
    Mr. Principato. I think in talking to airport leaders all 
over the world, of course, there isn't a single one who wants 
to run an insecure airport. They all want the best security 
they could possibly have. In many cases, as has already been 
described by Ms. Reeder and others, they lack the resources or 
maybe the training in some cases to do that. So they're 
certainly looking for that.
    But there are plenty of places around the world, as has 
already been discussed, in Europe and elsewhere where the 
standards are as good as what we have here. I think the main 
thing--I think the main point I want to make about this is that 
the Department of Homeland Security's impulse to work through 
ICAO and to harmonize and to work with other countries is 
exactly the right way to go. I think early on when we were 
responding in the middle of the decade, for example, to liquids 
and gels plot, there were airport folks in Africa and elsewhere 
who were just frustrated. They were just, OK, now we've got to 
do this, now we've got to do that; we're not part of this. And 
now they are.
    I think there's a genuine desire around the world to meet 
the highest standards they could possibly meet. You've got 
Boeing and Airbus building planes that can now go point-to-
point to lots of different places we didn't have before. People 
want in on that and they know they can't get in on that unless 
they're part of the solution.
    So I'm very pleased actually that the U.S. government is 
working so hard through ICAO with our international partners to 
try to develop these standards, get them on board, so that we 
can have a more uniform approach throughout the world.
    Senator Dorgan. Mr. Lord, what progress has TSA made from 
your perspective in establishing a system to screen 100 percent 
of the inbound air cargo on passenger aircraft?
    Mr. Lord. We issued a report in June of this year on that 
very subject and, while we gave TSA good marks for establishing 
a system to meet the 9/11 Act requirements on domestic air 
cargo carried on passenger flights, we pointed out they did not 
meet 9/11 Act requirements on inbound air cargo on passenger 
flights.
    Again, there are a multitude of reasons why. You're 
essentially working with a number of foreign governments to 
help harmonize standards and, sure, they have the systems in 
place, but it's an incredibly complex proposition. And the TSA 
Administrator indicated recently before this committee it 
probably will take until 2013 to come up with a system. I don't 
think they're ever going to have identical screening systems. I 
think the operative word is ``commensurate with.'' So TSA's 
currently in the process of evaluating a certain number of 
other countries' systems to ensure they're commensurate with 
TSA requirements. It's going to take some time to do that. It's 
an evaluative process. They have to collect information, and 
it's difficult.
    Senator Dorgan. Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. Thanks for calling 
the hearing. I want to express my appreciation to the panel of 
witnesses that have joined us today to talk about a very 
serious matter. It's a question that's on the minds of more and 
more Americans as a result of recent events and the increase in 
air travel that always happens this time of the year.
    Whether it was Abdulmutallab's attempt to detonate a bomb 
while traveling to Detroit last December or the recent 
terrorist plot that was uncovered regarding suspicious packages 
that originated in Yemen, there's no question that Al Qaeda and 
other groups continue to explore weaknesses in our air 
transportation system when it comes to passenger flights and 
shipments of cargo.
    So I will just try and keep my remarks brief and let the 
witnesses respond to a couple of questions. Maybe this has been 
asked. If it has, I apologize. But with all the recent public 
concerns regarding the use of advanced imaging technology--and 
I guess I would direct this first to Ms. Reeder and then 
whomever else would like to respond to it--could you explain 
what makes TSA's deployment of this technology different from 
other countries?
    Ms. Reeder. In our testing of the technology, I think that 
it's important to look at what Mr. Pistole had talked about 
with regard to the automated target recognition software, 
because I suspect that that's part of the question. There are 
other countries that have deployed AIT. Some countries have now 
deployed their own version of ATR, which really mollifies many 
of the concerns about the privacy.
    However, our concern remains the number of false positives 
and then the amount of patdown that is required to resolve 
those false positives. So we continue to work with the other 
countries to encourage them to procure AITs, hopefully AITs 
similar to what we've already procured since we've been doing 
so much of the testing.
    We're cooperating with them in identifying what the 
measures are that--or the standards we used. We hosted a big 
conference last November, 3 weeks ago, where we had numerous 
countries that were represented. We had I believe about 85 
people from all over the world who attended, in our attempts to 
ensure that they understood fully what the benefits are of AIT, 
and helped to ameliorate some of the concerns about the 
drawbacks of AIT.
    Senator Thune. Mr. Lord.
    Mr. Lord. I think it's important to note there's a 
significant difference in the scale, the magnitude, of the 
deployment. As of today, I believe TSA has deployed about 385 
units in 70 airports. Based on the information we collected as 
part of our current audit, it's our observation, even though 13 
other countries are either testing or deploying it, that the 
quantities, the numbers of machines, they're actually deploying 
are rather small.
    As you probably know, TSA plans to have 500 machines 
deployed at the end of this year, 1,000 by the end of next 
year, and 1,800 at full deployment. So I think that's really 
important to understand. Just the scale of the deployment in 
our country vastly exceeds what other countries are currently 
considering.
    Mr. Heyman. Let me just add one other thing in terms of one 
of the things that we do in an exceptional way is the privacy 
protections we've put in place to ensure the privacy of the 
public. There are a number of procedures that are in place. To 
begin with, all images are viewed in a walled-off area by 
somebody who's remote, not where the screening is taking place.
    The officer who's assisting the passenger can't view the 
images. The images cannot be stored, printed, or transmitted. 
In fact, they're deleted. The officer can't go to the next 
image until the image is deleted. They're not allowed to bring 
any cameras or anything into the room. They will be fired if 
they do, so that they can't retain those images. The images are 
blurred in an appropriate way.
    So there are a number of privacy protections that we put in 
place to ensure that the traveling public understand that we 
take that seriously.
    Mr. Principato. If I can, just very quickly from the 
airport point of view. We very, very much are interested in the 
development of the automated target recognition technology. The 
image comes up, it looks like a Gumby character, if you 
remember the character Gumby. As Ms. Reeder said, they're 
concerned about the false positives and the actual patdowns and 
all the time that that takes. If we can get that technology 
over the finish line, then you don't have to have that person 
sitting in that room who can't see you and me and who we are, 
our wives, or anybody else. You can put that person to doing 
something really important and take them away from looking at 
that screen, if we can get that technology there. It's really, 
really worth looking at, investing in, and pushing.
    I just want to pat TSA on the back a little bit, too, for 
the meeting that Ms. Reeder talked about from a few weeks ago, 
for the fact that they included stakeholders as well, the 
airline and airport community. It's really important that 
airlines and airports are involved in these solutions.
    Senator Thune. So basically what you're saying is that is 
some sort of a software application. And is it a cost issue, or 
is it just not fully developed yet?
    Ms. Reeder. It is a technology issue; it's not a cost issue 
at all. In fact, it will be an addition to the existing 
hardware. But it's just that the technology has not evolved 
that far yet.
    Mr. Principato. Somebody explained it to me on a third 
grade level, they said that you want to get the machine to 
where they're at least as good as the human in looking at the 
image. That the machine is as good as that, then we want to get 
beyond that point. And for me to understand it, that really 
rang home with me.
    Senator Dorgan. Senator Thune, I think, if you'd yield, I 
think Mr. Pistole when he was here indicated that the 
programming and the technology would be usable on the existing 
frame of the imaging systems they now have. So it's a matter of 
plugging it in. We were asking the question, are you going to 
have to buy all new machines. The answer is no, which I think 
is going to be helpful.
    Senator Thune. It's like a new little card or something on 
our computers, right?
    Mr. Principato. Software upgrade.
    Senator Thune. A chip or something, yes.
    To get to that goal of having 1,000 of the machines by the 
end of 2011--and again, I would direct this, I guess, to either 
Assistant Secretary Heyman or Ms. Reeder--could you give the 
Committee a sense of the percentage of these machines--that the 
machines would cover, versus existing walk-through 
magnetometers?
    Ms. Reeder. We can get that for you.
    Senator Thune. OK, that's not something that's readily 
available.
    Mr. Lord. Actually, I believe I know the answer to that 
question. There's about, from my understanding, 2,300 
checkpoints. So if you acquire 1,800 machines, it's still not 
going to be enough to ensure 100 percent coverage. TSA's 
strategy is to focus it, the use of these machines, on the 
highest volume airports.
    Senator Thune. And by the end of 2011 you'd have almost 
half of them covered, if there are 2,300.
    When it comes to separating the machine from the actual TSA 
screener, can you tell the Committee how much training is 
required when it comes to operating those new machines?
    Mr. Heyman. It does require training. Each of the officers 
who are required to go through mandatory training and updates 
are also overseen by supervisors who see the same training and 
continue to ensure the integrity of the program.
    Senator Thune. My time is up. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Thune, thank you very much.
    Senator Rockefeller.
    The Chairman. A final question from my point of view. We 
talked about machinery. We need to talk about information. That 
is, about passengers. You had, I believe, an incident where the 
European Parliament rejected the continuation of the passenger 
name record IE information on passengers. That can be as 
important as the machinery itself and can reveal things that 
the machinery never could, such things as intent.
    I think machinery is the final passage and ought to be. But 
the sharing of information about passengers surely has to be 
extremely controversial. Why did they turn it down, the 
European Parliament, number one?
    Second, who sets the standard on information? Do we have 
the best way in the United States of delineating information? I 
wouldn't think that would be necessarily the case because I 
think the Germanys and the Englands and the Amsterdams, et 
cetera, in many cases might feel more threatened because they 
have a higher at-risk, so to speak, population.
    But anyway, can you enlighten me on that?
    Mr. Heyman. Happy to, Senator. The European Parliament did 
not vote down our PNR agreement. We have a bilateral agreement, 
the United States and the European Union, for the sharing of 
passenger name records, PNR. These are the records that 
travelers provide to their travel agents when they purchase a 
ticket and they are forwarded, a number of discrete fields, 
names and----
    The Chairman. So, it's not security?
    Mr. Heyman. It is for security. The purposes of that 
information--we get that information. That information is then 
sent forward to CBP 72 hours before the departure of a flight 
to the United States. Having that information 72 hours in 
advance allows us to check against our watch lists and to do 
the kind of screening that we need to do to make sure that 
people are either not on the flight who shouldn't be on the 
flight because they're a known or suspected terrorist, or that 
they are in fact--that we need to take a second look and we 
have to do some additional screening.
    So the PNR record is extremely important. It has helped us 
on a number of occasions, recent occasions, to identify or 
through the data PNR provides us to do analysis that allows us 
to find co-
travelers, for example, who may be of concern--we did that in 
the case of Zazi--and to identify individuals who may be trying 
to flee the country, as the case was with Shahzad.
    So a very valuable tool. The information sharing is 
critical. Parliament has not rejected that agreement. They have 
said that they've got questions about it; they want to 
strengthen the privacy protections in it and a number of other 
elements, and they have consequently said they were going to 
withhold their voting it down until the Commission negotiates a 
new agreement with the United States.
    So the Commission received today their mandate to negotiate 
with the United States, and that will be a forthcoming 
negotiation starting very soon.
    The Chairman. OK. So what information needs to be there?
    Mr. Heyman. So you asked about standards. The United States 
has--there are 19 different types of data that we require, and 
that requirement is different from country to country. That is 
to say, other countries who have PNR systems do not necessarily 
have the same standard as the United States. You mentioned 
Germany and the Europeans. The Europeans do not have a PNR 
system for analysis at this point. A number of countries want 
to have it. There is no agreement----
    The Chairman. Is that because of the European Union factor?
    Mr. Heyman. The European Commission has not at this point 
taken that on, and a number of countries are waiting to get 
that, an equivalent of a mandate for the Commission to have a 
uniform union PNR system. At this point that does not exist, so 
they do not have that tool.
    The Chairman. I would think that the European Union 
factor--i.e., they don't have passports; they all have the same 
passports, et cetera--would actually be quite a risk when it 
comes to information for airplane travel and potential 
terrorism.
    Mr. Heyman. Well, there are, as you know, ongoing threats 
that have been discussed in public, in Europe. Having all of 
the tools that we need to avert those threats is critical. We 
very much would support a European PNR system. We find it an 
invaluable tool----
    The Chairman. Do the Europeans--their PNR system, is it 
one--is it the same for all the members of the European Union? 
Second, is it--I think you indicated it's not satisfactory or 
compatible with our own.
    Mr. Heyman. They do not have one at this point, and so 
that's to be determined. Member states seek to have their own 
systems and the European Commission will seek to have a 
European-wide one for all member states.
    The Chairman. That sounds like 2 decades worth of work. I 
mean, what's the problem here?
    Mr. Heyman. I'll defer those questions to the European 
Commission.
    The Chairman. Europe is Europe?
    Mr. Heyman. Look, they have their own process by which they 
go through to develop the tools. I think just this week the 
counterterrorism coordinator for the European Commission, Giles 
de Kerchove, stated quite emphatically that more investment 
needs to go into terrorist, counterterrorist programs, in 
particular transportation security, and that Europe needs to 
come up to speed on that, to include better coordination on 
understanding the threat.
    So I think they are having discussions and we would 
encourage that.
    The Chairman. OK. Then finally, if they don't come up to 
the standards we think they should have, if they ever get to 
have the standards, ever can agree on anything--surely they 
should, but Europe is Europe. What if they don't come up to our 
standards? What do we do?
    Mr. Heyman. Well, we have our own--as I said, we have an 
agreement with the Europeans today. We have in place a highly 
effective operational arrangement.
    The Chairman. That I stipulate. But just as machinery has 
to in some way be compatible, so does information, I would 
think, to satisfy us.
    Mr. Heyman. So what the Europeans don't have right now is, 
for flights flying into Europe from outside of Europe, they do 
not have the same advance passenger information which we get in 
our PNR arrangement. So they at this point would be lacking a 
tool to do the kind of screening that we do, which we find 
quite useful.
    The Chairman. OK. Thank you.
    Senator Dorgan. We've been joined by Senator Klobuchar. 
Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing on international aviation 
screening standards.
    Regrettably, recent terror attempts against the U.S. have 
once again highlighted both the risks that we face through our 
aviation system and also our dependency on our international 
partners. We are lucky in this case that we were alerted to 
these attempts by our allies and this step in the process shows 
that there are some good things happening in terms of the 
sharing of information, but there is clearly more work to be 
done.
    I actually wanted to start with something I know Chairman 
Rockefeller discussed and that was the issues with--some issues 
with Canada. This is kind of a side point, but it's the 
requirement--I discussed this with Secretary Napolitano--of the 
rescreening for passengers arriving from Canada. I don't know 
if you're aware of this, since their baggage must be physically 
transported from the arrival aircraft to a baggage screening 
facility in the U.S.----
    I see you're nodding your head, Ms. Reeder, Mr. 
Principato--and it causes a lot of delays on our end for 
passengers who, by the way, have already flown in from Canada 
over our airways, with their screening.
    Could you just discuss if there's any progress on that 
issue because of the delays it's causing in the U.S.? Ms. 
Reeder?
    Ms. Reeder. Senator, as I believe that we've answered in a 
couple of your letters, we do continue to work with the 
Canadians on this topic. As you're aware, the Aviation and 
Transportation Security Act is very specific in what kind of 
screening has to be done on those checked bags. We continue to 
encourage the Canadians to purchase the same kind of explosive 
detection systems for screening the checked bags that we use, 
and that's in accordance with ATSA.
    However, given space constraints, given financial 
constraints, et cetera, they've not been able to move forward. 
Once they're able to purchase those types of equipment, install 
them, and begin using the same SOPs as we do, we anticipate 
that we'll be able to move forward very quickly in eliminating 
the need for the rescreening of the bags upon arrival in the 
United States.
    Senator Klobuchar. Mr. Principato?
    Mr. Principato. If I could, as we have Canadian members 
too, the Minneapolis-St. Paul airport in your state, there's no 
airport in the country with higher costs that are caused by 
this particular requirement. Denver is rising quickly as is 
Chicago and a number of others.
    The example I often use, you can fly from Montreal--I 
apologize for not using Minneapolis in this example----
    Senator Klobuchar. That's all right.
    Mr. Principato. But this is geographically--you can go from 
Montreal to Denver with your bag screened in Montreal and 
you're fine, going over two-thirds of the country. And then you 
transfer to Grand Junction, a couple hundred miles, and you 
have to have your bag rescreened, and your bag may not make it 
with you to Grand Junction.
    I understand the requirements of ATSA. Perhaps--just two 
thoughts. Perhaps, number one, as we look at hopefully maybe 
reforming ATSA, maybe we could deal with that provision in 
ATSA, because it just doesn't make any sense.
    Number two, in the meantime we're looking for Winnipeg as a 
possibility for an airport in Canada where we could do maybe a 
pilot. I've talked to Jeff Hamiel, your Airport Director in 
Minneapolis about this, and perhaps we can work with CATSA and 
TSA and others to do a pilot to show how this might work.
    Senator Klobuchar. Very good. Thank you.
    Then just on the issue that we've been focused on here, the 
partnership with the international partners on the cargo 
screening. Can you talk about what is happening with that in 
terms of the international partners, and I guess specifically 
if you've worked with private industry on this, on the 
expansion of layered detection systems, to strengthen security?
    Mr. Heyman. We have a number of activities underway. One is 
obviously following the events of October 28 and working with 
industry, with carriers, government, United States Postal 
Service, the State Department, a number of different actors 
involved, in making sure that we have in place a regime that is 
both operationally effective and maintains the security that we 
need.
    That will continue to evolve over the next weeks to months. 
In terms of the specific requirement that we have for 100 
percent screening of air cargo, we have, as you know, succeeded 
in doing 100 percent screening within the United States and we 
are now incrementally moving toward 100 percent 
internationally. That will be achieved by 2013.
    We have done that in two ways. One is to increase the 
requirements through our security standards, standard security 
programs; and two is to develop national cargo security 
programs that are commensurate with screening programs that we 
would have. That's to say, third parties that can validate or 
screen the cargo in advance.
    There are quite a bunch of challenges associated with 
that--different systems, different laws, different regulations 
throughout the world. But we are making steady progress on 
that.
    Senator Klobuchar. What steps is TSA, Ms. Reeder, taking to 
offer guidance to other partners--this is countries--
particularly high-risk nations? And can you talk at all about 
the training efforts that are going on, when it's so clear that 
this is a global issue?
    Ms. Reeder. Well, in terms of the cargo outreach, as Mr. 
Heyman mentioned, we are working on national cargo security 
program reviews. There are a number of countries--in fact, the 
top 20 exporters to the United States, the majority of them 
have very robust security programs. We have a program through 
which we're going to each of those countries, we are receiving 
their programs, evaluating them, going to the countries, 
looking at the actual process, following a box from the point 
at which the shipper hands it in to the point at which it gets 
on the aircraft to determine whether that is meeting what our 
needs are as far as the 100 percent screening requirements.
    For training, we have developed a pretty comprehensive 
cargo training program. We have two actual approaches with it. 
One is looking at cargo screening based on ICAO requirements. 
Currently ICAO requirements focus simply on implementing 
security controls. It does not dictate that you screen the 
cargo. With Amendment 12, it opens the door--and that's the 
most recent iteration of International Civil Aviation 
Organization's Annex 17. That does open the door to more 
stringent activities regarding cargo.
    But our cargo training has been focusing very much on using 
actual technology, not just physical screening but the use of 
X-rays, the use of explosive trace detectors. Looking at what 
we've been doing at specific countries, high-risk countries, we 
have a team that is departing Yemen tomorrow who's been working 
with them on the use of ETDs, explosive trace detectors, for 
cargo, for passengers, for checked baggage. We also provided to 
them on a long-term loan portable ETDs, both portable ETDs and 
the stand-alones that you would see at a U.S. airport.
    So we've been identifying those locations where they pose 
the greatest concern to us, going there and providing the 
training, and in some cases doing the long-term loans of the 
ETDs.
    Senator Klobuchar. Anyone want to add anything to that?
    [No response.]
    Senator Klobuchar. I just wanted one other thing, if you 
could just pass on to the Secretary--I know this isn't the 
focus today, but I was talking to some of our TSA people when I 
came home from the holidays to come back here, and I just want 
to pass on the good work that they do. I think they went 
through quite a public brouhaha last week. I think there were 
some issues with education of the public on this policy. I 
understand the concerns raised by people that called me, but I 
think this idea that it should somehow be taken out on these 
front-line employees who are simply doing their job--I think 
what they told me, which is good, was that the passengers were 
appreciative of their work. But I think they were through the 
wringer and I think appreciated the support that they got from 
the Department. So I want to just put my appreciation for their 
work, whatever the policy changes may be.
    All right. Thank you.
    Senator Dorgan. Senator Klobuchar, thank you very much. I 
think that's an important statement to understand, that the 
folks who are at our airports who are doing the day to day 
screening, they're working under the orders of a process and 
procedures and supervision. They by and large do a really 
outstanding job.
    I mean, like everyone else, you can find one that's crabby 
or had a bad day and probably not doing quite as well as you 
would hope. But by and large, I've watched a lot of it because 
I've traveled a lot, and I think they day in and day out do a 
pretty good job. Given the patdown issue, given the advanced 
imaging issues and the 
24/7 news about the----
    Senator Klobuchar. And the Saturday Night Live commercial.
    Senator Dorgan. All of that. I think it has been a pretty 
tough time, and I think--I know Mr. Pistole wishes, and the 
Department wishes, that perhaps they had done a lot more 
advance work to explain to people what they're doing.
    Given a choice of getting on an airplane with a large 
number of passengers who have not been properly screened and 
who could possibly have an explosive device, or getting on an 
airplane in which passengers have been screened sufficiently so 
that there's no possibility of flying with a bomb, I think most 
passengers would choose the latter by far. That's what we 
expect and want.
    I want to just say that the sum total of all that we've 
been talking about is for here and around the world to try to 
keep people and luggage off of airplanes and other methods of 
transportation, but especially airplanes, keep people and 
luggage off of airplanes that would be containing a bomb or a 
weapon.
    It's not easy to do, especially inasmuch as in recent years 
what has happened is we now have people that are perfectly 
willing to kill themselves while they commit an act of terror. 
That's a change and we haven't always seen that in our 
lifetime.
    So it seems to me kind of a race between offense and 
defense. Who are the terrorists? How do you identify them? How 
do you keep them and the things they would want to carry with 
them onto an airplane? They want to kill people, we want to 
protect people. It's that simple. And yet it's that complicated 
as well.
    So the purpose of this hearing is to once again get a 
status report of where we are, what we're working on trying to 
do, as I said at the outset, not just with respect to an 
airport in Fargo or Minneapolis or somewhere else in this 
country, but the network of airports and the network of 
screening around the world by which someone can enter the 
system and move around the world. The process for providing 
security in those circumstances for both people and luggage is 
enormously complicated and a very big undertaking.
    One thing I don't quite understand for sure is, have the 
good fortunes that we have experienced, and that is being able 
to at least see the prevention of the bombs that we're aware 
of, that they didn't detonate and so we've been fortunate, and 
we haven't seen other acts, is that good government or is it 
just good fortune? I don't know the answer to that, but I know 
there's a lot of work under way and a lot more is necessary to 
provide the kind of protection I think the traveling public 
demands and deserves.
    So I want to thank all of you for preparing testimony and 
being with us, and I know that you'll be asked again and again 
to come before this committee and give us status reports on the 
work that you're doing.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Hon. David Heyman
    Question 1. Some people have called for the United States to adopt 
the Israeli airport security model. The Ben Gurion Airport in Israel 
had nearly eleven million passengers pass through it last year. In 
contrast, the three airports in the northern New Jersey region alone 
saw more than one hundred million passengers in 2008. What would be the 
costs to adopt an Israeli airport security model here in the United 
States?
    Answer. The Transportation Security Administration (TSA) has not 
conducted a formal analysis of the cost to implement a United States 
airport security system modeled after Israel's system. The 
substantially higher passenger volumes and the comparative complexity 
of the U.S. commercial aviation systems with its 450 geographically 
dispersed locations would likely pose considerable operational and 
financial challenges for transplanting the Israeli system in this 
nation.
    TSA has consulted extensively with Israel and adapted key 
techniques to meet U.S. aviation security needs. In particular, TSA 
already operates a behavior detection program that is based on Israel's 
model, and continues to increase the direct human evaluation of 
passengers during screening. Still, an analysis of Israel's system must 
take into account not only differences in scale regarding passenger 
enplanement but also the differences in U.S. policy toward privacy and 
civil rights and civil liberties.

    Question 2. Airlines have been charging passengers fees for 
checking their bags, leading more passengers to carry bags onboard and 
causing significant strain at airport checkpoints. Airlines are 
required to pay an annual security fee, but that fee is based on costs 
from 10 years ago. Yet, the administration has proposed an increase to 
passenger security fees. Shouldn't the security fee for airlines be 
increased instead of shifting this burden onto passengers?
    Answer. The Aviation Security Infrastructure Fee was imposed on 
certain air carriers beginning in February 2002. In accordance with 
requirements from Congress in the Aviation and Transportation Security 
Act (ATSA) (codified at 49 U.S.C. 44940 et seq.), the total amount of 
fees imposed on the air carriers may not exceed the aggregate cost that 
the air carriers incurred for passenger and property screening during 
calendar year (CY) 2000, as determined by the Transportation Security 
Administration (TSA). TSA has imposed the fee at this overall limit 
since February 2002 based on its determinations regarding CY2000 costs. 
The statutory cap on the fee precludes TSA from implementing any upward 
adjustment of the fee.

    Question 3. In the U.S. we now require all cargo placed on 
passenger aircraft to be screened and we have stepped up security 
significantly on cargo-only flights since the bomb plot in October. 
International cargo security standards currently focus on protecting 
the packages themselves, rather than screening for terrorist threats. 
Shouldn't the international community place more emphasis on protecting 
the public against what might be in packages?
    Answer. The international aviation security standards established 
by the International Civil Aviation Organization (ICAO), and set forth 
in Annex 17 to the Convention on International Civil Aviation, require 
all ICAO Contracting States to ensure the safety of passengers, crew, 
ground personnel, and the general public from acts of unlawful 
interference with civil aviation. The Annex 17 standards on air cargo 
security have recently been updated by ICAO and specifically address 
the screening of cargo and mail, and the establishment of a supply 
chain security process, as well as ensuring that security controls are 
applied to cargo being transported on all-cargo aircraft. After the 
October 2010 incident, ICAO and its Contracting States realized that 
more attention to air cargo security standards and practices is 
necessary. To that end, ICAO, its Contracting States to include TSA, 
and industry partners participated in a multilateral study group on 
cargo and supply chain security in December 2010 with the ultimate goal 
of developing additional amendments to the Annex 17 Standards and 
Recommended Practices to further strengthen air cargo security with 
emphasis given to the most recent and evolving threats.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Hon. David Heyman
    Question 1. What actions has DHS taken on outreach efforts to 
assure the public of the safety of the scanners currently being 
implemented throughout the country?
    Answer. The Transportation Administration (TSA) has conducted 
dozens of press conferences, at more than 70 airports that currently 
have Advanced Imaging Technology (AIT), reaching thousands of 
passengers to inform the traveling public of the importance of the 
technology, advising them that the technology is safe, and reminding 
them that it remains an option to all passengers. TSA has worked with 
third party health and safety groups to verify the safety of the 
technology. TSA continues to work with local and national media outlets 
to provide the latest information on the technology with regards to its 
safety and effectiveness. The Office of Public Affairs has responded to 
and conducted interviews for more than 4,000 press inquiries. TSA 
communicates with the traveling public on an ongoing basis through the 
TSA website (www.tsa.gov), the TSA Blog, Twitter, fact sheets, and 
brochures. In addition, TSA has installed multiple signs informing 
passengers about the technology, including sample images, in plain 
sight at airport security checkpoints, in front of the AIT, and on the 
AIT itself.

    Question 2. What plans does DHS have to expand public outreach and 
education on this issue?
    Answer. The Transportation Administration (TSA) will continue to 
conduct press conferences in each media market that receives Advanced 
Imaging Technology (AIT) to educate the traveling public about this 
critical screening tool used to ensure the safety of air travel. TSA 
will also continue to educate and inform the public through traditional 
media and social media about the safety and privacy protections in 
place for travelers.

    Question 3. What efforts is DHS undertaking to work with industry 
to develop improvements to further protect the privacy of individuals 
screened with advanced imaging technology?
    Answer. The Transportation Security Administration (TSA) is working 
closely with Advanced Imaging Technology (AIT) manufacturers as they 
develop Automated Target Recognition (ATR) software. ATR software is 
used with AIT and displays a gender-neutral stick figure-like image on 
the monitor attached to the AIT machine. This generic image shows 
potential threats concealed on a passenger; however, it does not 
display the actual image of the passenger. It will provide strong 
privacy protections and will eliminate the need to staff an extra 
officer in a private room. Software development is currently underway 
and will be followed by testing to ensure it meets our screening 
requirements.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            Stephen M. Lord
    Question. In 2007, GAO issued a report that found of the one 
hundred twenty-eight foreign airports inspected by TSA in Fiscal Year 
2005, only thirty six percent complied with all security standards. 
What should the Department be doing to require foreign airports to meet 
all security standards for passenger aircraft entering the United 
States?
    Answer. In accordance with 49 U.S.C.  44907, TSA assesses the 
effectiveness of security measures at foreign airports served by a U.S. 
air carrier, from which a foreign air carrier serves the United States, 
or that pose a high risk of introducing danger to international air 
travel, and at other airports deemed appropriate by the Secretary of 
Homeland Security. Section 44907 also identifies measures that the 
Secretary must take in the event that he or she determines that a 
foreign airport is not maintaining and carrying out effective security 
measures based on TSA assessments. However, it is important to note 
that while TSA is authorized under U.S. law to conduct foreign airport 
assessments at intervals it considers necessary, TSA may not perform an 
assessment of security measures at a foreign airport without permission 
from the host government. (In contrast, foreign air carriers with 
service to or from the United States must adopt and carry out security 
programs against which TSA may assess compliance at its discretion. See 
49 U.S.C.  44906 and 49 C.F.R. pt. 1546.) As part of our ongoing 
review of TSA's efforts to assess the security measures at foreign 
airports, we plan to evaluate the results of TSA assessments at foreign 
airports, including how TSA uses the results of its assessments to help 
enhance foreign airport efforts to implement effective security 
measures consistent with international aviation security standards. We 
also plan to review the extent to which any Secretarial actions have 
been taken in response to TSA assessments at foreign airports.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Gregory Principato
    Question 1. Airlines have been charging passengers fees for 
checking their bags, leading more passengers to carry bags onboard. 
What has been the security impact on airports as a result of these 
baggage fees?
    Answer. The increase in carry-on baggage after the airlines began 
charging a fee for checked baggage has caused a backlog at the X-ray 
machines at airport security checkpoints. The fees have prompted 
passengers to bring more carry-on baggage, packed full of personal 
items, including multiple electronic devices. Therefore, it takes 
additional time for TSA Transportation Security Officers to thoroughly 
screen individual items, something that creates bottlenecks of 
passengers waiting for their carry-on baggage to be screened. This has 
contributed to an increase in wait times at many airport security 
checkpoints.

    Question 2. Cargo manifest information entering our country by air 
must be provided just 4 hours prior to arrival--which could be too late 
to stop a bomb before it enters one of our airports. Shouldn't we 
require more advance notice for air cargo, particularly high-risk 
cargo, entering the United States?
    Answer. This is an interesting point, and as I stated in my 
testimony, our security system should be much more risk-based. A 
government/industry working group should be created to look at a number 
of things, including the manifest data requirement, coupled with the 
latest intelligence information, in order to achieve that goal.
                                 ______
                                 
                                                   December 1, 2010
Hon. John D. Rockefeller IV,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Byron Dorgan,
Chairman,
Subcommittee on Aviation Operations, Safety, and Security,
U.S. Senate,
Washington, DC.
Hon. Kay Bailey Hutchison,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Jim DeMint,
Ranking Member,
Subcommittee on Aviation Operations, Safety, and Security,
U.S. Senate,
Washington, DC.

RE: International Aviation Screening Standards Hearing

Dear Chairman Rockefeller, Ranking Member Hutchison, Chairman Dorgan 
            and Ranking Member DeMint:

    On behalf of Morpho Detection, thank you for your continued 
leadership and efforts to improve aviation safety and security in the 
U.S. and for inbound flights to the United States.
    As a market leader in explosives and narcotics detection equipment, 
Morpho Detection is working closely with the Transportation Security 
Administration and international aviation security agencies throughout 
the world to enhance aviation security and improve screening standards 
across all aircraft access points. Enclosed is our latest white paper 
on Aviation Screening Standards. I respectfully request that it be 
submitted to the hearing record as part of Aviation Subcommittee's 
December 2, 2010 hearing on International Aviation Screening Standards.
    We welcome the opportunity to discuss these ideas with you further 
at your convenience. In the meantime, should you have any questions I 
can be reached at 202-256-1235.
    Thank you for your consideration.
            Sincerely,
                                              Scott Boylan,
                                Vice President and General Counsel.
About Morpho Detection, Inc.
    Morpho Detection, Inc.--part of Morpho, a business of the Safran 
group (PAR: SAF)--is a leading supplier of explosives and narcotics and 
chemical, biological, radiological, and nuclear (CBRN) detection 
systems for government, military, air and ground transportation, first 
responder, critical infrastructure and other high-risk organizations. 
Morpho Detection integrates computed tomography (CT), Raman 
Spectroscopy, trace (ITMS<SUP>TM</SUP> technology), X-ray and X-ray 
Diffraction technologies into solutions that can make security 
activities more accurate, productive and efficient, With industry-
leading products such as the Itemiser  DX trace detection system, the 
CTX line of explosive detection systems (EDS), and the StreetLab* 
Mobile hand-held chemical and biological substance identification unit, 
Morpho Detection's solutions are deployed to help protect people and 
property in some of the most important and sensitive world locations.
    Additional information can be found at www.morphodetection.com.
                               Attachment
                                                      December 2010
  Improving U.S. Aviation Security through High Standards--Not by the 
                   Selection of Specific Technologies
    Based on twenty years of experience developing and producing 
aviation security solutions, Morpho Detection, Inc., recommends the 
U.S. adopt a policy of establishing high security standards, as opposed 
to selecting specific technologies that seem promising at a particular 
moment in time.
    Such a standards-based approach would stimulate the development of 
technologies or combinations of technologies that provide the best 
possible levels of true threat detection, reduce false alarm rates and 
speed passenger, baggage and cargo flows. This approach, feasible both 
in terms of policy and cost, will not only lead to higher security 
levels but also provide a much needed boost to the airline industry 
with higher throughput and greater trust in the security provided U.S. 
aviation.
The Way Forward for Aviation Security
    Setting high and non-technology-specific standards would result in 
a consistent approach to solving the nation's aviation security 
challenges. Further, it would better leverage the uniquely American 
government-industry collaborative relationship to develop new 
technology-based screening solutions necessary to detect threats and 
achieve ever higher screening performance.
    Creating such standards would incentivize manufacturers to invest 
in the development of solutions to the nation's aviation security 
threats by providing them an established baseline that equipment must 
meet. Manufacturers would be empowered to work with the government to 
develop the right long-term solutions in support of clearly established 
standards.
A Disproportionate Focus on Specific Technologies
    Although many screening technologies for aviation security exist, 
the policy debate is focused largely on specific technologies instead 
of the desired security level.
    For example, the debate about passenger screening is currently 
focused on Advanced Imaging Technology (``AIT'') body scanners. While 
body scanners have a role to play in a layered approach to aviation 
security, they are by no means a silver bullet. AITs do not actually 
detect threats. Instead, AITs are designed to indicate the presence of 
physical anomalies on a person's body for identification by an operator 
and further inspection to determine if the anomalies are in fact actual 
threats. Moreover, the machines cause passenger concern and anger, are 
expensive and time-consuming to operate, have high false alarm rates, 
and do not effectively detect well-concealed items such as explosives 
hidden in hard-to-detect locations or in passengers' bodies.
A Better Technology-neutral Approach Based on High Standards
    Rather than continuing to add new technologies to the list of 
authorized screening methods, the government should set clear standards 
for threat detection that would apply to any security system used to 
scan people or things going onto aircraft. A single set of standards 
would encourage competition among equipment manufacturers, and 
stimulate investment in more accurate and efficient systems that allow 
TSA to scan passengers, crew, baggage and cargo more thoroughly and 
quickly.
    The potential of such standard setting is demonstrated by the 
technology-neutral approach taken for screening of passengers' checked 
baggage that has been highly successful in raising security levels 
since 9/11. The checked baggage standard has spurred the improvement of 
existing technologies, such as faster and smaller Computed Tomography 
(CT) explosives detection systems, and the development of new 
technologies, such as X-ray Diffraction. Today, checked baggage loaded 
onto passenger planes is screened to a single high detection standard 
by a variety of technologies appropriate for individual airport size 
and configuration.
    The U.S. should adopt a similar standards-based approach for all 
aspects of aviation security, including the screening of passengers, 
carry-on bags, checked baggage and cargo.
                                 ______
                                 
                                           FlyersRights.org
                                         Napa, CA, December 1, 2010
Hon. John D. Rockefeller IV,
Chairman,
Commerce, Science, and Transportation Committee,
U.S. Senate,
Washington, DC.

Dear Mr. Chairman:

    On behalf of the American traveling public thank you for examining 
the current policies being employed by the Transportation Security 
Agency (TSA) at our airports.
    We understand that preventing terrorist acts in a travel system as 
complex as ours presents an enormous challenge. The dedicated men and 
women that work in our airports to keep us safe are often never thanked 
fully or appreciated--we also thank you for your continued strong 
support of these brave and dedicated men and women.
    What is at stake in this debate is nothing less than the civil 
liberties we all hold dear in this nation. In other less democratic 
nations, imposing highly invasive searches upon citizens is a lot 
easier, or should be a lot easier, than doing it in this country. Yet 
it seems TSA is willing to cut corners on civil liberties with these 
new tactics. We believe that in America, implementing policies that 
clearly impact our civil liberties must be a balancing act--even when 
national security is at stake. Our concern is that when it comes to the 
recent policies initiated at our airports, these policies are not 
appropriately balanced and not in keeping with the traditions and 
precedents set by our Constitution.
    We wish to make clear that the current debate should not be about 
``more'' security or ``less security'' at our airports. Our 
organization is not advocating for less security at airports. What we 
are advocating for is smarter security. This means that all the 
national security and law enforcement agencies must do a much better 
job of sharing and using information, and getting it in a timely 
fashion to those that are on the operational front lines such as 
airport security checkpoints. It means wider use of less invasive 
biometric technologies. In the age of real time global data and a smart 
energy grid, we believe this is difficult but achievable. We recognize 
and appreciate your continuing efforts and leadership to make our 
transportation the safest and most efficient in the world and have 
every confidence you will work to ensure our security system is also.
    Secondly, we believe that the successes of others who have faced 
more severe daily threats than we do in the U.S. over a longer period 
of time--namely Israel, is instructive. Israel, as you know, has been 
highly effective in recent years at preventing terrorist actions at 
their airports by using a tiered system of security. The Israelis 
leverage an enormous amount of coordinated effort and manpower is used 
to identify suspects before they go through security so that the more 
suspicious a person is, the greater the level of security they receive. 
While Israel may have slightly different values than we do in terms of 
how it profiles suspects, we must pursue a system that effectively 
targets threats and applies the appropriate level of security 
accordingly. We feel that few, if any, would protest using highly 
invasive techniques on individuals that are suspected on some 
reasonable basis of being a threat. The problem is that right now it 
seems we have a dragnet that does not appear to discriminate between an 
84-year-old grandmother and a highly-suspicious individual.
    Additionally, if Americans are going to be forced to stow their 
civil liberties in the overhead bin, they should at least be doing so 
for a comprehensive set of tactics that work. Recent reports and data 
demonstrate that the current suite of techniques being used would not 
detect the Underwear Bomber or weapons hidden in body cavities. We are 
hopeful that this information will be used by the Committee and brought 
to bear in your questioning and follow up with TSA officials. Current 
security gaps must be addressed, and new tactics employed--hopefully 
only on those that are reasonably suspected.
    We also urge you to take a hard look at the security being imposed 
on airport workers including those who clean the planes and have access 
to aircraft. In many cases these workers, some of whom come from 
countries on terrorist watch lists, are not subjected to the same level 
of screening or security as passengers and crew. Despite this, some of 
these workers may have unfettered access to aircraft on the ground 
while the rest of us are effectively under arrest for purposes of 
search and seizure. This information has been imparted directly to us 
by those who have direct knowledge of security lapses and gaps in this 
area.
    Americans will sacrifice a great deal to ensure they are and their 
families are safe when they fly. Ensuring their safety, as Chairman, is 
an enormous responsibility. In the coming weeks and months we are 
hopeful that you will chart a course that implements real time security 
at airports that is tiered, targeted and efficient and in keeping with 
our most sacred traditions of civil liberty. We urge you to ensure that 
the sacrifices travelers do make are not overly invasive, without cause 
and that they are not made in vain. We are confident that as Americans 
we can do better.
            Sincerely,
                                                Kate Hanni,
                                                Executive Director.

                                  <all>

</pre></body></html>
